<html>
<title> - ELEVEN YEARS LATER: PREVENTING TERRORISTS FROM COMING TO AMERICA</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






    ELEVEN YEARS LATER: PREVENTING TERRORISTS FROM COMING TO AMERICA

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON BORDER AND
                           MARITIME SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 11, 2012

                               __________

                           Serial No. 112-113

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE

80-855 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2250  Mail: Stop SSOP, Washington, DC 
20402-0001








                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois                  Hansen Clarke, Michigan
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Ron Barber, Arizona
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                Candice S. Miller, Michigan, Chairwoman
Mike Rogers, Alabama                 Henry Cuellar, Texas
Michael T. McCaul, Texas             Loretta Sanchez, California
Paul C. Broun, Georgia               Sheila Jackson Lee, Texas
Ben Quayle, Arizona, Vice Chair      Brian Higgins, New York
Scott Rigell, Virginia               Hansen Clarke, Michigan
Jeff Duncan, South Carolina          Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)

                      Paul Anstine, Staff Director
                   Diana Bergwin, Subcommittee Clerk
            Alison Northrop, Minority Subcommittee Director















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Candice S. Miller, a Representative in Congress 
  From the State of Michigan, and Chairwoman, Subcommittee on 
  Border and Maritime Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Henry Cuellar, a Representative in Congress From 
  the State of Texas, and Ranking Member, Subcommittee on Border 
  and Maritime Security..........................................     4

                               Witnesses

Ms. Kelli Ann Walther, Deputy Assistant Secretary, Office of 
  Policy, Department of Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Mr. Kevin McAleenan, Acting Assistant Commissioner, Office of 
  Field Operations, Customs and Border Protection, Department of 
  Homeland Security:
  Oral Statement.................................................    16
  Prepared Statement.............................................    17
Mr. John P. Woods, Assistant Director, National Security 
  Investigations, Homeland Security Investigations, Immigrations 
  and Customs Enforcement, Department of Homeland Security:
  Oral Statement.................................................    23
  Prepared Statement.............................................    24
Mr. Edward J. Ramotowski, Deputy Assistant Secretary, Bureau of 
  Consular Affairs, U.S. Department of State:
  Oral Statement.................................................    29
  Prepared Statement.............................................    30
Mr. Charles K. Edwards, Acting Inspector General, Office of the 
  Inspector General, Department of Homeland Security:
  Oral Statement.................................................    36
  Prepared Statement.............................................    37

                                Appendix

Questions From Ranking Member Bennie G. Thompson for Kelli Ann 
  Walther........................................................    45

 
    ELEVEN YEARS LATER: PREVENTING TERRORISTS FROM COMING TO AMERICA

                              ----------                              


                      Tuesday, September 11, 2012

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 311, Cannon House Office Building, Hon. Candice S. Miller 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Miller, Duncan, Cuellar, Jackson 
Lee, Higgins, and Clarke.
    Mrs. Miller. Good morning, everyone. The Committee on 
Homeland Security, Subcommittee on Border and Maritime Security 
will come to order. The subcommittee is meeting today to 
examine the Department of Homeland Security's ability to 
prevent terrorists from traveling to the United States.
    We have an excellent panel of witnesses. I would just 
remind the committee, though, and the witnesses as well, 
obviously in remembrance of this day, 9/11, 11 years ago, we 
have some pictures on the back of this committee room which 
remind us all, each and every day, of why this committee was 
even formed, the main committee and certainly our subcommittees 
as well.
    There will be a commemorative ceremony at 11:00 o'clock 
today. All the Members of Congress will be gathering, the House 
and the Senate, at the East Center Staircase for the 
Congressional Remembrance Ceremony marking the observance of 
September 11, 2001.
    So this committee will be certainly joining our other 
colleagues. We will have opening statements from myself and our 
Ranking Member and the statements of our witnesses. We will see 
where we are on time, because we will have a hard break 
probably at about 10 to 11:00 for folks.
    Our witnesses today are Kelli Ann Walther, who is the 
deputy assistant secretary for policy at the Department, Kevin 
McAleenan, acting assistant commissioner in the Office of Field 
Operations at Customs and Border Protection, John Woods, 
assistant director for national security investigation at ICE, 
Ed Ramotowski, deputy assistant secretary for visa services at 
the Department of State, and Charles Edwards, the acting 
inspector general at the Department of Homeland Security.
    Eleven years ago today, 19 terrorist cowards successfully 
penetrated our border and visa security defenses and hijacked 
four planes to conduct a terrible, terrible attack against 
nearly 3,000 innocent people. That act of violence, as I said, 
is the very reason the Department of Homeland Security exists, 
and why this committee was created to prevent another terrorist 
attack on our homeland.
    We should never forget, of course, what happened on that 
Tuesday in September when so many of our fellow Americans died 
tragically, or fail to remember the first responders as well, 
all of the victims of that tragedy. One of the ways I think 
that we can honor those who lost their lives that terrible day 
is to make sure an attack like that never happens again, to 
harden our defenses and to take into account the hard lessons 
that we learned that day.
    Among the most important weaknesses the attackers exploited 
was the porous outer ring of border security. The hijackers 
actually passed through United States Border Security a 
combined total of 68 times. The relative ease with which the 
terrorists evaded detection by presenting fraudulent 
documentation, passports, and made detectable false statements 
on visa applications, gave false statements to border 
officials, and certainly the failure to watch lists with known 
al-Qaeda operatives became missed opportunities to stop those 
attacks.
    It has highlighted certainly the need to close the holes 
exploited by the 9/11 terrorists by strengthening our border 
security and visa issuance policy. Curtailing the ability of 
terrorists to travel to the United States can be one of the 
most effective counter-terrorism tools, because denying 
terrorists the freedom to travel essentially eliminates their 
ability to plan or to exercise or to carry out attacks on our 
homeland.
    As the 9/11 Commission Report noted, said in the report, 
for terrorists, travel documents are as important as weapons, 
which is a very interesting statement I think. Building on that 
key insight, we strengthen our outer ring of border security to 
conduct more rigorous checks, collect biometric data and 
continuously check visa holders against the terrorist watch 
list.
    We have pushed our border out by conducting more checks 
overseas before passengers even board an airplane or present 
themselves to a CBP officer at any of our ports of entry, a 
layered approach that increases our chances of preventing 
terrorists from ever coming to America.
    Today, we collect more information on foreign travelers 
that allows CBP, through the National Targeting Center, to use 
complex targeting rules which examine travel patterns, allowing 
agents to find any problems with travel documents that might 
raise a red flag.
    Programs such as CBP's Immigration Advisory Program and 
ICE's Visa Security Unit, that stations officers and agents 
overseas, are critical components of our success at keeping 
those with terrorism links and other high-risk passengers off 
planes that are bound into the United States.
    Without question, we have made enormous progress, limiting 
the ability of terrorists to travel to the United States since 
9/11. But certainly the incident of the Christmas day bomber, 
that demonstrated that we still have some significant gaps in 
our visa vetting system.
    Continually vetting visa and electronic systems for travel 
authorization holders against our watch list is a welcome 
improvement, but we are going to be interested from hearing 
from our witnesses today how we can further leverage the power 
of targeting systems to vet visa applicants before a visa is 
ever issued.
    Improvements to watch listing processes have increased the 
ability of consular officers and other border security 
officials to keep those individuals that concern us out of the 
country. But we still need to do better.
    So we will be interested again to hear from the witnesses 
on how we vet visa applicants that are known to the 
intelligence community, and how we resolve visa issuance 
through the Security Advisory Opinion Process.
    Unlike several of this subcommittee's previous hearings 
where we discussed the challenges of tracking down visa over-
stays and the delay in rolling out a reliable exit system that 
allows Department of Homeland Security to determine if a visa 
holder has departed in accordance with the terms of their visa, 
this hearing is really focused on the front end of the visa 
process.
    We certainly believe that a viable exit system, of course, 
is vital to our National security efforts. But it is incumbent 
on the Department of Homeland Security and the Department of 
State to also focus their efforts on preventing terrorists from 
coming into the country in the first place.
    Also look forward to hearing from the inspector general in 
regards to their recent work which identified challenges with 
US-VISIT and the multiple names associated with the same set of 
fingerprints, a gap certainly that needs to be swiftly 
corrected to prevent fraud and exploitation by any terrorist.
    Certainly contrary to what some have suggested, al-Qaeda, 
although diminished in capability thanks to the wonderful work, 
heroism, and professionalism and bravery of our men and women 
in uniform and our allies, still, they are a lethal enemy 
intent on attacking the homeland.
    Vigilance is certainly one of the best tools at our 
disposal to prevent terror travel. So that is why we are here 
today, to examine those gaps, vulnerability in the visa 
immigration system, and how they have been addressed in the 
period since 9/11.
    [The statement of Chairwoman Miller follows:]
               Statement of Chairwoman Candice S. Miller
    Eleven years ago today, 19 men successfully penetrated our border 
and visa security defenses and hijacked four planes to conduct a 
heinous attack against nearly 3,000 innocent people.
    That act of violence is the very reason the Department of the 
Homeland Security exists, and why this committee was created--to 
prevent another terrorist attack on the homeland.
    Along the walls, we have photographs of the aftermath of those 
attacks to remind us why we're here--and most importantly the cost of 
failure.
    We should never forget what happened on that Tuesday in September 
to so many of our fellow Americans, or fail to remember the first 
responders and victims of that tragedy.
    I would like to ask you to join me in a moment of silence in honor 
of those who died in the World Trade Center and the Pentagon.
    One of the ways we can honor those who lost their lives is to make 
sure an attack like that never happens again--to harden our defenses 
and take into account the hard lessons learned from that horrible day.
    Among the most important weaknesses the attackers exploited was the 
weakness of our ``outer ring of border security.'' The hijackers passed 
through U.S. border security a combined total of 68 times.
    The relative ease with which the terrorists evaded detection by 
presenting fraudulent documents and passports with suspicious 
indicators, made detectable false statements on visa applications, gave 
false statements to border officials, and the failure to watchlist 
known al-Qaeda operatives became missed opportunities to stop the 
attacks.
    It highlighted the need to close the holes exploited by the 9/11 
terrorists by strengthening our border security and visa issuance 
policy because curtailing the ability of terrorists to travel to the 
United States can be one of the most effective counterterrorism tools.
    Denying terrorists the freedom to travel essentially eliminates 
their ability to plan, exercise, and carry out attacks on the homeland.
    As the 9/11 Commission Report noted, ``For terrorists, travel 
documents are as important as weapons.'' Building on that key insight, 
we have strengthened our ``outer ring of border security'' to conduct 
more rigorous checks, collect biometric data, and continuously check 
visa holders against the terror watch lists.
    We have pushed our border out by conducting more checks overseas 
before passengers board a plane, or present themselves to a CBP officer 
at the port of entry--a layered approach that increases our chances of 
preventing terrorists from ever coming to America.
    Today, we collect more information on foreign travelers that allows 
CBP, through the National Targeting Center, to use complex targeting 
rules, which examine travel patterns--allowing agents to discern 
problems with travel documents that might raise red flags.
    And programs, such as CBP's Immigration Advisory Program and ICE's 
Visa Security Units, that station officers and agents overseas are 
critical components of our successes in keeping those with terrorism 
links and other high-risk passengers off planes bound for the United 
States.
    Without question, we have made progress limiting the ability of 
terrorists to travel to the United States since 9/11, but the Christmas 
day bombing attempt demonstrated there are still significant gaps in 
our visa vetting system.
    Continually vetting visa and Electronic System for Travel 
Authorization (ESTA) holders against our watch lists is a welcome 
improvement, but I will be interested in hearing from our witnesses on 
how we can further leverage the power of targeting systems to vet visa 
applicants before a visa is ever issued.
    Improvements to watch-listing processes have increased the ability 
of consular officers and other border security officials to keep those 
individuals that concern us out of the country, but I am still 
concerned that being on a watch list is not an automatic bar to getting 
a visa.
    I will be interested to hear from the witnesses on how we vet visa 
applicants that are known to the intelligence community, and how we 
resolve visa issuance through the Security Advisory Opinion process.
    Unlike several of this subcommittee's previous hearings, where we 
have discussed the challenges of tracking down visa overstays, and the 
delay in rolling out a reliable exit system that allows DHS to 
determine if a visa holder has departed in accordance with the terms of 
their visa, this hearing is focused on the front end of the visa 
process.
    I continue to believe that a viable exit system is vital to our 
National security efforts, but it is incumbent on DHS and the 
Department of State to also focus their efforts on preventing 
terrorists from coming to the country in the first place because it is 
much easier to detect them on the front end of the process.
    I also look forward to hearing from the DHS Inspector General in 
regards to their recent work which identified challenges with US-VISIT, 
and the multiple names associated with the same set of fingerprints--a 
gap that needs to be swiftly corrected to prevent fraud and the 
exploitation by terrorists.
    Contrary to what some have suggested, al-Qaeda, although diminished 
in capability, is still a lethal enemy, intent on attacking the 
homeland. Vigilance is one of the best tools at our disposal to prevent 
terror travel.
    That is why we are here today--to examine how gaps and 
vulnerabilities in the visa and immigration system have been addressed 
in the period since 9/11.
    I look forward to hearing from the distinguished panel of witnesses 
and with that I'll yield to the Ranking Member.

    Mrs. Miller. The Chairwoman now recognizes the Ranking 
Member for his opening statement.
    Mr. Cueller. Thank you, Madam Chairwoman. I join Chairwoman 
Miller and my colleagues in remembering those who lost their 
lives in the terrorist attacks of September 11, 2001. Our 
thoughts and our prayers are with them and their families 
today, the 11th anniversary of this tragedy. Of course, every 
day our prayers are with them.
    One way we can honor those who died is to do our utmost to 
prevent terrorists from traveling to countries to do us harm. 
The 9/11 hijackers did not sneak into the country across our 
land borders, but rather entered the United States via an 
airplane and carrying visas.
    The attempted bomber of an airline on Christmas day, 2009, 
was a stark reminder of the vulnerabilities in the visa 
process. The Department of Homeland Security and the Department 
of State, with the direction of Congress, have taken important 
steps to strengthen visa security and to pre-screen air 
passengers traveling to the United States.
    With DHS, the U.S. Immigration, Customs Enforcement--ICE--
has expanded its Visa Security Program at our overseas 
embassies, providing an important additional layer of security 
in visa securities and security matters.
    Similarly, the U.S. Customs Border Protection has deployed 
Immigration Advisory Program officers at foreign airports and 
strengthened its ability to identify travelers of concern bound 
for the United States. CBPS also enhances efforts at the 
National Targeting Center to combat terrorist travel.
    These programs require investments in personnel, 
technology, and resources. So it is imperative that Congress 
continues providing DHS the funding it needs to carry out its 
mission.
    Today, I look forward to hearing about what security 
enhancements have been made since the subcommittee met last 
year on this important issue, as well as what remains to be 
done.
    A related issue that I continue to find troubling is that 
of recalcitrant countries. It is my understanding that certain 
individuals subject to orders of removal from the United States 
are often delayed due to their respective Government's refusal 
to accept the return of their nationals or use lengthy delay 
tactics.
    I have raised this issue in previous hearings. I appreciate 
the difficult and delicate nature of this issue. But we must 
address this issue. We, the Chairwoman and I and the committee, 
look forward to working with you on this issue.
    However, I look forward to hearing more from the Department 
and ICE about recommended steps for improvements. So any steps 
you all might have, any ideas that you might have, please work 
with our committee.
    I certainly thank Chairwoman Miller for having this 
particular hearing, her leadership. I appreciate all the 
witnesses for joining us here. I look forward to your 
testimony.
    I yield back the balance of my time.
    Mrs. Miller. I thank the gentlemen. The other committee 
Members are reminded that any opening statements they may have 
can be entered into the record.
    What I will do is introduce each one of the witnesses. Then 
we will start over here. Give a short bio here.
    First of all, as I mentioned, we are joined by Ms. Kelli 
Ann Walther, who currently serves as the senior director for 
the Department of Homeland Security Screening Coordination 
Office. Ms. Walther began working in the SCO in 2007, where she 
is currently responsible for setting policy and direction that 
harmonizes a variety of Department of Homeland Security 
screening programs and investments.
    Mr. Kevin McAleenan is the acting assistant commissioner at 
the U.S. Customs and Border Protection, where he is responsible 
for overseeing CBP's anti-terrorism, immigration, anti-
smuggling, trade compliance, and agricultural protection 
operations at 20 major field offices, 331 ports of entry, and 
70 locations in over 40 countries internationally.
    Mr. John Woods is the assistant director at U.S. 
Immigration and Customs Enforcement, where he oversees National 
Security Investigations Division within Homeland Security 
Investigations. As chief of this 450-person headquarters 
division, he manages a $160 million operational budget and 
overseas HSI's investigative, regulatory, and technological 
programs, targeting transnational National security threats 
arising from illicit travel, trade, and financial enterprises.
    Mr. Ed Ramotowski is a deputy assistant secretary for visa 
services at the United States Department of State. In this 
position, he oversees the visa office in Washington, DC, two 
domestic processing centers, as well as visa operations at over 
200 U.S. embassies--excuse me--and consulates abroad. He has 
previously worked as a special assistant to the assistant 
secretary of state for consular affairs, chief of the consular 
section at the U.S. Embassy in Nassau, Bahamas, as the U.S. 
consul in Warsaw, Poland, as well.
    Mr. Charles Edwards is the acting inspector general of the 
Department of Homeland Security. He has over 20 years of 
experience in the Federal Government and has held leadership 
positions at several Federal agencies, including the 
Transportation and Security Administration, the U.S. Postal 
Service's Office of Inspector General, and the United States 
Postal Service.
    The Chairwoman would now recognize Ms. Walther for her 
opening testimony.

  STATEMENT OF KELLI ANN WALTHER, DEPUTY ASSISTANT SECRETARY, 
       OFFICE OF POLICY, DEPARTMENT OF HOMELAND SECURITY

    Ms. Walther. Chairwoman Miller, Ranking Member Cuellar, and 
distinguished Members of the subcommittee, thank you for the 
opportunity to highlight our work on preventing terrorist 
travel. I head the Screening Coordination Office, where we 
facilitate policy decisions for people screening programs, from 
planning through implementation.
    We are the DHS coordination point for inter-agency 
screening initiatives as well. As the 9/11 Commission pointed 
out, targeting terrorist travel is one of the most powerful 
weapons we have to counter terrorist operations. Today's threat 
environment is complex and multifaceted. So it is imperative we 
employ layers of security throughout the travel continuum, to 
identify individuals that may pose a risk before they reach the 
United States.
    We recognize there is no one-size-fits-all approach to 
security. Our approach includes close coordination with 
counter-terrorism, law enforcement and public security 
authorities, the private sector and our State, local, Tribal, 
territorial, and foreign partners.
    To support these efforts, DHS collects biographic and 
biometric data for screening against various databases to track 
known threats. We utilize intelligence-based targeting rules 
and risk-based screening to better identify unknown threats.
    A risk-based approach is the foundation of the DHS model 
today, and in a more comprehensive and sophisticated form than 
ever before.
    With the advent of better information technology, DHS has 
been able to apply this approach across the life cycle of a 
traveler's journey, including first when a traveler seeks an 
authorization to travel, either a visa or ESTA; second just 
prior to travel, when DHS conducts passenger manifest and 
reservation screening; third, when a person seeks to board a 
commercial aircraft or vessel, passengers must undergo physical 
screening; and finally upon arrival at a port of entry, when a 
traveler seeks admission to the United States, DHS conducts 
verification of a traveler's identity and identity documents.
    Today, the visa waiver program is more robust than ever 
before, with strengthened international partnerships and 
enhanced information-sharing arrangements. Today, we receive 
data we never had access to before. We now conduct ESTA checks 
on every VWP traveler.
    In the last 3 years, DHS has also achieved a major aviation 
security milestone by assuming responsibility for terrorist 
watch list screening for all aircraft operators covered by the 
Secure Flight final rule. Today, Secure Flight vets 100 percent 
of all commercial airline passengers flying into, out of, and 
within the United States--approximately 2 million passengers 
every day.
    We know that implementing such secure measures must be done 
while ensuring the facilitation of legitimate trade and travel. 
Trusted traveler programs such as Global Entry include over 1.4 
million pre-approved low-risk travelers who may undergo 
expedited inspection.
    These individuals are our most frequent border-crossing 
travelers. Because they are known, they usually enter the 
United States in a fraction of the time of other individuals. 
Additionally, TSA has implemented its Pre-Check Expedited 
Screening Program. TSA Pre-Check uses intelligence-driven 
information and a risk-based approach to provide more effective 
screening, focusing resources on those travelers we know the 
least about, while providing expedited screening and a better 
experience for travelers we know the most about.
    In the past 10 years, we have made great strides to 
facilitate the known traveler, leaving us more time to identify 
the unknown threat. But let me be clear, no visa, ESTA, trusted 
traveler program provides carte blanche to enter the United 
States. Throughout all the phases of travel, DHS is constantly 
monitoring changes to the watch list that could lead to 
recommendations against boarding or revocation of a visa, 
refusal of admission, or even removal of an individual.
    DHS mitigates risks in a way that effectively establishes 
and uses security measures to promote the safe movement of 
people and commerce, while respecting privacy, civil rights and 
civil liberties. With this in mind, DHS is also deliberate in 
its efforts to provide travelers an opportunity to be heard.
    The DHS Traveler Redress Inquiry Program, or DHS TRIP, is a 
single point of contact for individuals, regardless of 
citizenship, who have inquiries or seek resolution of 
difficulties they experience during travel.
    Today, in response to 9/11 and evolving threats, we have 
significantly adapted and enhanced our ability to detect travel 
threats at the earliest opportunity. DHS does not work alone in 
this mission.
    Terror screening is a multi-agency and collaborative 
effort. More work remains to be done.
    But Chairman Miller, Ranking Member Cuellar, I can assure 
you that the men and women of the Department of Homeland 
Security never forget. Our goal is to keep the country safe. 
For us, it is not a job. It is a mission.
    Thank you for this opportunity to update the committee on 
the progress the Department has made in recent years. Thank you 
for holding this hearing.
    I have submitted written testimony and respectfully request 
it be made part of the hearing record. I look forward to your 
questions.
    [The prepared statement of Ms. Walther follows:]
                Prepared Statement of Kelli Ann Walther
                           September 11, 2012
                              introduction
    Good morning Chairman Miller, Ranking Member Cuellar, and 
distinguished Members of the subcommittee. Thank you for the 
opportunity to appear before the subcommittee to highlight the 
Department of Homeland Security's (DHS) work in preventing terrorist 
travel.
    Eleven years ago, screening of passengers coming to the United 
States was limited to the Department of State (DOS) visa process, if 
applicable, the inspection of a person by an immigration officer at the 
port of entry, and processes applied at foreign airports by foreign 
governments. Provision of advance passenger information was voluntary 
and, even when provided by air carriers, frequently contained 
inaccurate or inconsistent data. There was no biometric collection for 
visa applicants beyond photographs, or from aliens seeking admission to 
the United States. There was limited pre-departure screening of 
passengers seeking to fly to the United States, virtually no screening 
of any kind for domestic flights beyond the security checkpoint, and no 
advance vetting of passengers seeking admission under the Visa Waiver 
Program (VWP). Interagency sharing of information on terrorist threats 
was minimal.
    Today, in response to both 9/11 and evolving threats, and with the 
help and support of Congress, we have significantly adapted and 
enhanced our ability to detect and interdict threats at the earliest 
opportunity. As the 9/11 Commission pointed out, targeting terrorist 
travel is one of the most powerful weapons we have to counter terrorist 
operations. One of the key aspects of the DHS approach is to identify 
persons that may pose a risk to U.S. citizens or whose entry may 
violate U.S. law, before they reach the United States.
    DHS works to track known threats, while utilizing intelligence-
based advanced targeting techniques to help mitigate and identify 
unknown threats. For example, DHS uses the U.S. Government's 
consolidated terrorist watch list and other information derived from 
investigations and intelligence assets to identify individuals with 
known or suspected ties to terrorism and other potential threats to the 
United States. In addition, DHS relies on domestic and international 
criminal records (e.g., investigative case files domestically and 
INTERPOL notices internationally) to identify potential criminal 
movements. Travel data is also compared against passport, visa, and 
immigration data to determine if travelers are admissible or can enter 
the United States. Moreover, DHS implements rigorous physical security 
requirements both in the form of airport checkpoint and airline 
security standards, as well as physical detection methodologies (e.g., 
drug-sniffing canines) at ports of entry.
    Identifying travelers through a risk-based approach remains the 
foundation of the DHS model today, and in a more comprehensive and 
sophisticated form than ever before. With the advent of better 
information technology within Government and the transportation 
industry, DHS has been able to apply this methodology across the life 
cycle of a traveler's journey.
                dhs's multi-layered approach to security
    Since 9/11, the travel threat has evolved to include not only 
large-scale attacks, but also smaller operations with potentially 
catastrophic effects. Our approach employs multiple layers of security 
measures throughout the travel continuum that are closely coordinated 
with other U.S. Government counterterrorism, law enforcement, and 
public security authorities and with State, local, Tribal, territorial, 
and foreign partners and the transportation industry. To support these 
efforts, DHS collects biographic and biometric data for vetting and 
screening against various databases to track known threats and better 
identify and mitigate unknown threats.
    This multi-layered approach allows DHS to improve security and to 
minimize the likelihood that any single measure becomes a single point 
of failure.
Enhancements Since December 25, 2009
    Since the attempted bombing of a commercial aircraft on December 
25, 2009, DHS, in coordination with other departments and agencies, has 
worked to address issues and potential gaps to ensure that we have a 
comprehensive and multi-layered approach that focuses on stopping 
terrorists at the earliest possible opportunity. As represented by the 
other officials who have been asked to testify today, we can see that 
addressing this issue requires significant collaboration and 
coordination among Federal agencies.
    Our efforts are not all directed at one area of the travel 
continuum--but rather are part of our layered approach to strengthen 
security. Working in concert with other U.S. agencies, DHS has 
strengthened security, law enforcement, and screening at several points 
in the travel process:
  <bullet> During the travel planning phase, when a traveler seeks a 
        visa or authorization to travel;
  <bullet> Just prior to travel, when a person seeks to board a 
        commercial carrier or vessel;
  <bullet> Upon arrival at a port of entry, when a traveler seeks 
        admission into the United States;
  <bullet> During the period of stay in the United States, when a non-
        U.S. person travels by air within the United States; and
  <bullet> Upon departure, when a traveler leaves the United States.
    DHS, in cooperation with commercial carriers and vessels, reviews 
information about travelers, including their identity and travel 
documents, prior to arrival at a U.S. port of entry. The traveler 
establishes his or her identity through the provision of biographic and 
biometric data, which is confirmed at various points in the travel 
continuum.
                 screening in the travel planning phase
    This layer of defense consists of deploying safeguards to prevent 
dangerous individuals from obtaining visas and travel authorizations. 
To enter the United States, most foreign nationals are required to 
either obtain a visa issued by a U.S. embassy or consulate or, for 
citizens or nationals of a Visa Waiver Program (VWP) country,\1\ obtain 
a travel authorization via the Electronic System for Travel 
Authorization (ESTA). Visa applicants are required to provide biometric 
(fingerprint and digital photo) and biographic data. The applicant's 
information is checked against the biometric and biographic databases 
of DHS, DOS, and the Federal Bureau of Investigation. In most 
instances, individuals must also appear in-person for an interview with 
a consular official.
---------------------------------------------------------------------------
    \1\ The 36 countries currently designated for participation in the 
Visa Waiver Program include: Andorra, Australia, Austria, Belgium, 
Brunei, the Czech Republic, Denmark, Estonia, Finland, France, Germany, 
Greece, Hungary, Iceland, Ireland, Italy, Japan, South Korea, Latvia, 
Liechtenstein, Lithuania, Luxembourg, Malta, Monaco, the Netherlands, 
New Zealand, Norway, Portugal, San Marino, Singapore, Slovakia, 
Slovenia, Spain, Sweden, Switzerland, and the United Kingdom.
---------------------------------------------------------------------------
    DHS is continually working with interagency stakeholders to improve 
procedures for vetting immigrant and nonimmigrant visa applicants, 
asylum applicants, and refugees. The interagency vetting process in 
place today is more robust and considers a far broader range of 
information than it did in past years. Visa applicants, asylum 
applicants, refugees, and those seeking to enter the United States at a 
port of entry, are subject to rigorous background vetting, biographic, 
and biometric checks. The security procedures for all of these 
categories have been enhanced over the past several years as vetting 
capabilities have evolved and interagency partnerships with the law 
enforcement and intelligence communities have been strengthened.
    By continuously vetting all issued U.S. non-immigrant visas against 
law enforcement data, changes in a traveler's eligibility are 
identified by DHS in near real-time, allowing DHS to submit timely 
``no-board'' recommendations to carriers, visa revocation requests to 
DOS, or notifications to other law enforcement agencies in situations 
where the individual is physically present in the United States.
    In an effort to identify potential terrorists and criminals before 
they obtain a visa to travel to the United States, DHS has implemented 
the Visa Security Program (VSP) through which U.S. Immigration and 
Customs Enforcement (ICE) deploys trained special agents overseas to 
high-risk visa activity posts. The VSP is currently deployed to 19 
posts in 15 countries. As part of this program, ICE special agents 
conduct targeted, in-depth reviews of individual visa applications and 
applicants prior to the issuance of a visa and recommend to consular 
officers refusal or revocation of applications, when warranted. As of 
July 31, 2012, the VSP has screened over 1.1 million visa applicants 
against information held by DHS.
    In support of ICE VSP efforts to enhance visa security measures, 
representatives from DHS, ICE, U.S. Customs and Border Protection (CBP) 
and DOS have agreed to develop an automated visa screening process that 
will enable DHS entities to identify derogatory information relating to 
applicants prior to the visa application being submitted to a Consular 
Officer. This process will inform and be used in conjunction with the 
current DOS Security Advisory Opinion (SAO) and Advisory Opinion (AO) 
programs. Additionally, DHS, DOS, and the intelligence community are 
working to establish a process to screen all visa applications against 
intelligence information provided by the interagency prior to visa 
issuance.
Visa Waiver Program
    The VWP encourages high security standards and helps facilitate 
cooperation on security-related issues, including sharing security and 
law enforcement information, cooperating on repatriation matters, 
adhering to higher standards for aviation security, and strengthening 
document security standards. At the same time, the VWP facilitates 
exchanges--commercial, tourist, and others--that are essential to our 
economy. According to the Commerce Department, international tourism 
supported 1.2 million U.S. jobs last year, and tourism revenue in early 
2012 was up 14% from the previous year. The VWP is an essential driver 
of international tourism because it allows eligible nationals of 36 
countries to travel to the United States without a visa and remain in 
our country for up to 90 days. Over 60% of overseas travelers that come 
to the United States are from VWP countries.
    DHS has focused on bringing VWP countries into compliance with the 
information sharing agreement requirements of The Implementing 
Recommendations of the 
9/11 Commission Act of 2007 (9/11 Act), Pub. L. No. 110-53. As of 
January 2012, all VWP countries have completed an exchange of 
diplomatic notes or an equivalent mechanism for the requirement to 
enter into an agreement to share information on lost and stolen 
passports with the United States through INTERPOL or other designated 
means. DHS, in collaboration with the Department of Justice (DOJ), has 
also concluded Preventing and Combating Serious Crime (PCSC) 
agreements, or their equivalent, with 35 VWP countries and two VWP 
aspirants. DHS, along with DOJ and DOS, continues to work closely with 
the remaining country to sign a PCSC agreement. These agreements enable 
each side to query the fingerprint databases of the other side for law 
enforcement purposes and enable the sharing of data about criminals and 
terrorists. Also, the U.S. Government has concluded negotiations on 
arrangements with all VWP countries for the exchange of terrorism 
screening information.
    In addition, nationals from all VWP countries, regardless of their 
port of embarkation, are required to obtain an approved travel 
authorization via ESTA prior to boarding a carrier to travel by air or 
sea to the United States. ESTA vets prospective VWP travelers against 
several databases, including the terrorist watch list, lost and stolen 
passports (including INTERPOL Stolen and Lost Travel Documents), visa 
revocations, and previous VWP refusals.
    DHS supports the carefully managed expansion of the VWP to 
countries that meet the statutory requirements, and are willing and 
able to enter into a close security relationship with the United 
States. To this end, we support current bi-partisan efforts by the 
Congress to expand VWP participation and to promote international 
travel and tourism to the United States while maintaining our strong 
commitment to security. Additionally, as part of the President's recent 
Executive Order (13597), we are working with partner countries to meet 
existing requirements and prepare for further expansion of the VWP.
Refugee Vetting
    DHS is committed to conducting rigorous checks in order to ensure 
that individuals admitted to the United States, including those through 
the refugee program, do not threaten our security. Refugees often lack, 
for legitimate reasons, valid documents that establish their identity. 
The Department has instituted rigorous methods to mitigate this 
vulnerability. In May 2007, DHS announced and implemented an 
administration-coordinated, enhanced background and security check 
process for Iraqi refugees applying for resettlement in the United 
States.
    DHS has enhanced this security check regime, including both 
biographic and biometric checks, over the last several years as new 
opportunities and interagency partnerships with the law enforcement and 
intelligence communities have been identified. The latest enhancement 
to the refugee security check regime involves a new ``pre-departure'' 
check shortly before refugees are scheduled to travel to the United 
States. It is intended to identify whether any new derogatory 
information exists since the initial checks were conducted. No case is 
approved until results from all security checks have been received and 
analyzed.
                 screening prior to boarding/departure
    The next layer of defense for air travel includes information-based 
and physical screening prior to a traveler boarding an aircraft. In 
partnership with the airline industry and foreign governments, the U.S. 
Government conducts passenger manifest screening and vetting prior to 
air travel to identify known threats. Passenger and crew manifest 
screening and vetting are also conducted for commercial vessels in the 
maritime environment. In addition, physical screening of all air 
passengers and their baggage is conducted at airport checkpoints.
    The actions resulting from inclusion on the No-Fly, Selectee, or 
Expanded Selectee list are generally as follows:
  <bullet> No-Fly matches are prohibited from boarding an aircraft;
  <bullet> Selectee matches undergo enhanced screening prior to 
        boarding an aircraft; and
  <bullet> Expanded Selectee matches undergo enhanced screening prior 
        to boarding an aircraft.
Advance Passenger Information System (APIS) and Passenger Name Record 
        (PNR) Data
    DHS use of APIS and PNR data has assisted CBP in the positive 
identification of over 4,000 persons with ties to terrorism in fiscal 
year 2011.
    DHS analysis of PNR information--the information provided to the 
air carrier when booking international travel--is an indispensable tool 
for the prevention of terrorist travel. PNR analysis assists in the 
identification of watch-listed and other high-risk individuals up to 96 
hours in the maritime environment and 72 hours in the air environment 
prior to departure.
    DHS also uses PNR data to link previously unknown terrorists and 
criminals to known terrorists or criminals, and identify high-risk 
travelers by matching them against travel patterns known to have been 
used by terrorists or other intelligence-based scenarios.
    DHS identifies travel patterns and other information to develop 
targeting rules from intelligence information. These rules are reviewed 
quarterly by CBP, the DHS Privacy Office, the DHS Office of Civil 
Rights and Civil Liberties (CRCL), and the Office of the General 
Counsel. Additionally, the DHS Chief Privacy Officer conducts privacy 
compliance reviews of the DHS use of PNR and reports the findings to 
Congress.
    APIS data--essentially the flight or ship passenger and crew 
manifest for a given flight or voyage--contains information such as a 
traveler's date of birth, citizenship, and travel document number, 
which is typically collected as passengers check in for their flight or 
voyage.
Pre-departure Screening
    DHS utilizes the Immigration Advisory Program (IAP), at 11 airports 
in nine countries, to conduct additional screening for high-risk and 
improperly documented travelers, by using targeting and passenger 
analysis information. At the invitation of foreign partners, IAP 
officers can make ``no-board'' recommendations to airlines for 
travelers who may present security risks or lack necessary travel 
documents. This partnership has also benefited air carriers, as it 
saves them time and the cost of transporting individuals denied entry 
to the United States back to their port of embarkation. Through direct 
networks with commercial airlines and connections to CBP officers 
overseas as part of the IAP, National Targeting Center (NTC) officials 
are able to issue no-board recommendations to the airline to keep 
suspected high-risk passengers from traveling to the United States. In 
fiscal year 2012, to date, there have been more than 3,663 ``no-board'' 
recommendations.
Maritime Environment
    As the lead DHS agency for maritime homeland security, the U.S. 
Coast Guard screens all commercial vessel passenger and crew manifests 
against intelligence holdings and law enforcement data sets. This 
screening is conducted through the vessel's submission of an Advanced 
Notice of Arrival (ANOA) up to 96 hours (but no less than 24 hours) 
prior to arrival at a U.S. port. In 2011, 28.5 million people and over 
121,000 ship arrivals were screened, and 120 advance warning reports 
were generated regarding arriving ships, people, or cargo posing a 
potential threat.
Checkpoint Screening
    DHS employs measures both seen and unseen by travelers, including 
walk-through metal detectors, explosive trace detection equipment, 
trained canines, vapor trace machines that detect liquid explosives, 
full-body pat-downs, and behavior detection officers--both at and 
beyond the checkpoint. Advanced Imaging Technology (AIT) machines are 
also employed to screen passengers for metallic and non-metallic 
threats that cannot be detected by walk-through metal detectors. DHS 
has also strengthened the presence and capacity of law enforcement to 
prevent terrorist attacks on commercial aviation.
    DHS has increased Federal Air Marshal Service (FAMS) coverage of 
U.S.-flag carriers' international flights. The expanded FAMS program 
builds upon additional programs created since 9/11 that further 
increase the safety of aircraft, including the hardening of cockpit 
doors.
                     inspection at a port of entry
    All travelers to the United States, regardless of the means by 
which they arrive (land, sea, or air), must present valid travel and 
identity documents in order to obtain admission. Upon arrival at a port 
of entry, a traveler presents his or her secure travel document (i.e., 
passport) and visa (if required) or other appropriate travel 
authorization. The CBP officer will conduct information-based checks 
against Federal databases, and, when applicable, will collect 
biometrics (including fingerprints) to vet them against the DHS 
Automated Biometric Identification System (IDENT). IDENT will match 
biometric data previously collected from the traveler, such as during 
the visa application or a past visit to the United States, to verify 
the person's identity. Travelers may also undergo a secondary 
inspection prior to an admissibility determination.
    IDENT enables DHS to store and analyze biometric data--digital 
fingerprints and photographs--and then link that data with biographic 
information to establish and verify identities; IDENT contains 
biometric data on known and suspected terrorists, criminals, and 
immigration violators, and aids in distinguishing potential threats 
from bona fide travelers. ``Anchoring'' an identity on the first 
encounter--usually with the collection of biometrics through the visa 
and entry processes--helps prevent misidentifications and dramatically 
reduces the ability of individuals to use fraudulent identities on 
subsequent encounters.
Western Hemisphere Travel Initiative
    DHS continues to balance the need to prevent terrorist travel with 
the need to facilitate the legitimate travel of known individuals. The 
Western Hemisphere Travel Initiative (WHTI), implemented for air travel 
in 2007 and travel by land and sea in 2009, requires all travelers--
U.S. citizens and aliens alike--to present a passport or another 
acceptable secure document denoting identity and citizenship for entry 
into the United States. WHTI also expanded the use of radio frequency 
identification (RFID) technology to efficiently balance security needs 
and facilitation of legitimate trade and travel, resulting in an almost 
five-fold increase in RFID-enabled documents in 2 years. In addition to 
a decrease in counterfeit documents, and altered documents, WHTI has 
contributed to reduced wait times at ports of entry through Ready 
Lanes, which expedite the travel of individuals possessing WHTI-
compliant and RFID-enabled documents.
Global Entry
    In an effort to ensure security while facilitating legitimate trade 
and travel, DHS has also expanded Global Entry, which allows pre-
approved, low-risk travelers expedited inspection at select airports. 
More than 1 million trusted traveler program members are able to use 
the Global Entry kiosks, and we are expanding the program both 
domestically and internationally as part of the administration's 
efforts to foster increased travel and tourism.
    In addition to U.S. citizens and Lawful Permanent Residents, 
Mexican nationals can now enroll in Global Entry, and Global Entry's 
benefits are also available to Dutch citizens enrolled in the Privium 
program; South Korean citizens enrolled in the Smart Entry Service 
program; Canadian citizens and residents through the NEXUS program; and 
citizens of the United Kingdom, Germany, and Qatar through limited 
pilot programs. In addition, we have signed agreements with Australia, 
New Zealand, Panama, and Israel to allow their qualifying citizens and 
permanent residents to participate in Global Entry. Global Entry 
applicants, like applicants for DHS's other Trusted Traveler programs 
(i.e., NEXUS, SENTRI, and FAST) are vetted against criminal and 
terrorist databases, and provide biometrics prior to acceptance into 
the program.
                   screening within the united states
    Foreign visitors to the United States may undergo additional 
screening while in the United States for a variety of reasons, 
including if the visitor chooses additional domestic travel.
Secure Flight
    In November 2010, DHS achieved a major aviation security milestone 
by assuming responsibility from the airlines for terrorist watch list 
screening for 100 percent of aircraft operators covered by the Secure 
Flight Final Rule for flights into, out of, and within the United 
States. This year, DHS expanded the program to include overflights 
(i.e., flights that pass over but do not land in the United States) by 
requiring all Foreign Air Carriers to report Secure Flight passenger 
data for covered flights. Transportation Security Administration (TSA) 
continues to work with foreign air carriers to ensure compliance of 
this requirement. In addition to facilitating secure travel for all 
passengers, Secure Flight helps prevent the misidentification of 
passengers who have names similar to individuals on Government data 
sets.
    DHS revised the Secure Flight program to screen passengers against 
all records on the Terrorist Screening Database (TSDB) that contain a 
full name and a full date of birth (not just the No-Fly and Selectee 
lists); travelers identified under this new initiative are designated 
for enhanced physical screening prior to boarding an aircraft.
    DHS uses a passenger's name, date of birth, and gender to vet 
airline passengers against terrorist information up to 72 hours before 
those passengers are permitted to board planes. Passengers who are 
potential matches are immediately identified by DHS for appropriate 
notifications and coordination with our Federal partners.
    Secure Flight screens more than 14 million passenger reservations 
against terrorist information each week. Approximately 25 individuals 
per month are denied boarding under the Secure Flight program.
TSA PreCheck<SUP>TM</SUP>
    DHS has worked to develop a strategy for enhanced use of 
intelligence and other information to support a more risk-based 
approach in all facets of transportation security. TSA 
PreCheck<SUP>TM</SUP> is part of the Department's on-going effort to 
implement risk-based security concepts that enhance security by 
focusing on travelers DHS knows least about. More than 2 million 
passengers have received expedited screening through TSA 
PreCheck<SUP>TM</SUP> security lanes since the initiative began last 
fall. TSA PreCheck<SUP>TM</SUP> is now available in 22 airports for 
select U.S. citizens traveling domestically on Alaska Airlines, 
American Airlines, Delta Air Lines, United Airlines, and US Airways, 
and members of CBP's Trusted Traveler programs. TSA expanded TSA 
PreCheck<SUP>TM</SUP> benefits to U.S. military active-duty members 
traveling through Ronald Reagan Washington National and Seattle-Tacoma 
International airports. In addition to TSA PreCheck<SUP>TM</SUP>, TSA 
has implemented other risk-based security measures including modified 
screening procedures for passengers 12 and younger and 75 and older.
    As always, DHS will continue to incorporate random and 
unpredictable security measures throughout the security process, and at 
no point are TSA PreCheck<SUP>TM</SUP> travelers guaranteed expedited 
screening.
                        screening upon departure
    Over the past year, we have worked to better detect and deter those 
who overstay their lawful period of admission. These efforts, and DHS's 
overall approach is documented extensively in the comprehensive 
biometric air exit plan submitted to Congress this past spring. The 
ability to identify and sanction overstays is linked to our ability to 
determine who has arrived and departed from the United States. By 
matching arrival and departure records, and analyzing entry and exit 
records stored in our systems and using additional data collected by 
DHS, we can better determine who has overstayed their lawful period of 
admission.
    In May 2011, DHS began a coordinated effort to vet all potential 
overstay records against intelligence community and DHS holdings for 
National security and public safety concerns. Using those parameters, 
we reviewed the backlog of 1.6 million overstay leads in the U.S. 
Visitor and Immigrant Status Indicator Technology (US-VISIT) program 
and referred leads based on National security and public safety 
priorities to ICE for further investigation.
    Through limited automated means, DHS cross-referenced additional 
overstay leads with DHS location and immigration holdings, closing 
additional records by confirming changes in immigration information or 
travel history that had not yet been recorded. Previously, these 
records would not have been examined, except in instances when 
resources allowed. Now, we are vetting all overstays for public safety 
and National security concerns, and DHS is also conducting automated 
reviews for changes in immigration status or travel history. This is 
performed on a recurrent basis.
    In July, following the submission of the comprehensive air exit 
plan, Congress approved DHS to continue improvements related to 
identifying individuals who may have overstayed their lawful period of 
admission. DHS is implementing elements, and expects to have these 
enhancements in place by early 2013. Once completed, this initiative 
will significantly strengthen our existing capability to identify and 
target for enforcement action those who have overstayed their 
authorized period of admission, and who represent a public safety and/
or National security threat by incorporating data contained within law 
enforcement, military, and intelligence repositories.
    This strategy also will also enhance our ability to identify 
individual overstays; provide DOS with information to support visa 
revocation; prohibit future VWP travel for those who overstay; execute 
``lookouts'' for individuals who overstay, in accordance with existing 
Federal laws; establish greater efficiencies to the VWP; and enhance 
the core components of an entry-exit and overstay program.
    Concurrently, the Department's Science and Technology Directorate 
(S&T) is working to establish criteria and promote research for 
emerging technologies that would provide the ability to capture 
biometrics and develop a biometric exit capability at a significantly 
lower operational cost than is currently available. S&T is 
collaborating with the National Institute of Standards and Technology 
(NIST) on this initiative.
    Last, as part of the Beyond the Border Action Plan signed by 
President Obama and Canadian Prime Minister Harper in December 2011, we 
are creating an exit program on the United States Northern Border. In 
accordance with the Action Plan, the United States and Canada will 
exchange entry records so that an entry to one country essentially 
becomes an exit record from the other country.
    Overall, these elements constitute DHS's comprehensive approach to 
biometric exit implementation.
  building bridges: international partnerships and information sharing
    DHS works closely with international partners, including foreign 
governments, major multilateral organizations, and global businesses, 
to strengthen the security of the networks of global trade and travel, 
upon which our Nation's economy and communities rely. Today, DHS is in 
just about every corner of the world, with 11 components and over 1,400 
personnel stationed in more than 75 countries.
Perimeter Security
    DHS is working to implement the President's February 2011 Beyond 
the Border declaration with Canadian Prime Minister Harper, which will 
strengthen North American security and make both Canada and the United 
States safer through a series of mutually beneficial initiatives. 
Specifically, we have jointly committed to taking a ``perimeter'' 
approach to security and economic competitiveness in North America, and 
thus to collaborating to address threats well before they reach our 
shores. To address threats early, the United States and Canada are 
improving our intelligence and information sharing, and developing 
joint and parallel threat assessments in order to support informed 
risk-management decisions. We also are enhancing our efforts to 
identify and screen travelers at the earliest point possible, with a 
common approach, including biometrics. Specifically, we are working 
toward common technical standards for the collection, transmission, and 
matching of biometrics that enable the sharing of traveler information.
    DHS and DOS have worked with our closest allies to develop routine 
sharing of biometric information collected for immigration purposes. 
Last year, DHS chaired an initiative with Australia, Canada, New 
Zealand, and the United Kingdom to build on these efforts and expand 
security and information-sharing cooperation to mutually enhance travel 
security among these five countries. A program that began in 2010, 
which shares biometric information with Australia, Canada, New Zealand, 
and the United Kingdom, has identified cases of routine immigration 
fraud, as well as dangerous people traveling under false identities.
Intelligence and Information Sharing
    A critical step to thwarting terrorist operations along travel 
pathways is to identify those associated with, suspected of being 
engaged in, or supporting terrorist or other illicit activities, as 
well as the techniques they use to avoid detection. This is done by 
collecting, maintaining, and updating data and integrating knowledge of 
terrorist travel patterns into our immigration and border inspection 
systems and operations. DHS has created a standing intra-departmental 
working group to facilitate the sharing of DHS travel data with the 
intelligence community. The DHS Privacy Office and CRCL are key 
participants in the working group.
    Since 9/11, the Federal Government has improved the sharing of 
information and intelligence among stakeholders. Several organizations 
within DHS provide critical resources to the Department's ability to 
understand, anticipate, and thwart terrorist travel.
    CBP's National Targeting Center (NTC) provides tactical targeting 
information aimed at interdicting terrorists, criminal actors, and 
implements of terror or prohibited items. Crucial to the operation of 
the NTC is CBP's Automated Targeting System, a platform used by CBP to 
match travelers and goods against information and known patterns of 
illicit activity often generated from successful case work and 
intelligence. Since its inception after 9/11, the NTC has evolved into 
two Centers: The National Targeting Center Passenger (NTC-P) and the 
National Targeting Center Cargo (NTC-C).
    DHS implements programs around the world to provide training and 
technical assistance to build the capacity of foreign governments to 
counter terrorism activity, prevent terrorist movement, and strengthen 
the security of the United States. It is imperative that officials have 
the proper training and access to intelligence to detect fraudulent 
travel documents so that such documents cannot be used by terrorists 
seeking to subvert the screening process. The ICE Forensic Document 
Laboratory (FDL) is the U.S. Government's only forensic crime 
laboratory dedicated exclusively to fraudulent document detection and 
deterrence. The FDL also provides training to international and 
domestic partners on identifying fraudulent documents.
                                redress
    With all of these efforts, DHS is deliberate in its effort to give 
travelers an opportunity to be heard when an issue arises. The 
Department has established the DHS Traveler Redress Inquiry Program 
(DHS TRIP), a single point of contact for individuals, regardless of 
citizenship, who have inquiries or seek resolution of difficulties they 
experience during travel, including: Denied or delayed airline 
boarding; denied or delayed entry into and/or exit from the United 
States; or frequent referral for additional screening. Individuals who 
complete the redress process are issued a redress number that can be 
used to book travel to prevent misidentifications.
               privacy, civil rights, and civil liberties
    Protecting privacy, civil rights, and civil liberties is a core 
mission of DHS. DHS has the first statutorily-required privacy office 
of any Federal agency, as well as a senior official responsible for 
civil rights and civil liberties. DHS builds privacy and civil rights 
and civil liberties protections into its operations, policies, 
programs, and technology deployments from the outset of their 
development.
    Both the DHS Privacy Office and CRCL partner with every DHS 
component to assess policies, programs, systems, technologies, and 
rule-makings for privacy and civil liberties risks, and recommends 
appropriate protections and methods for handling personally 
identifiable information in accordance with the Constitution, the 
Privacy Act, and the Fair Information Practice Principles. At DHS we 
work hard to create an environment where privacy, civil rights, and 
civil liberties and security go hand-in-hand, helping to secure our 
Nation while honoring the principles on which the country was founded.
                               conclusion
    Since 9/11, we have learned that preventing terrorist travel 
through immigration and border security is more than drawing a line in 
the sand where we can deny entry into our country. We must utilize a 
multi-layered, many-faceted, and multi-national effort that weaves 
together intelligence, information-sharing, security and law 
enforcement programs from DHS, the interagency, and across a multitude 
of partnerships with our international and domestic partners.
    Together they reflect one of our Nation's most pressing priorities: 
The facilitation of legitimate travel and commerce while thwarting 
threats, and simultaneously protecting privacy and civil liberties.
    Thank you again for this opportunity to testify. I look forward to 
answering any questions you may have.

    Mrs. Miller. Thank you very much.
    The Chairwoman now recognizes Mr. McAleenan. I hope I am 
pronouncing that correct.

 STATEMENT OF KEVIN MC ALEENAN, ACTING ASSISTANT COMMISSIONER, 
  OFFICE OF FIELD OPERATIONS, CUSTOMS AND BORDER PROTECTION, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. McAleenan. Very close, ma'am. McAleenan. Good morning. 
Chairwoman Miller, Ranking Member Cuellar, distinguished 
Members of the subcommittee, thank you for the opportunity to 
testify here this morning about U.S. Customs and Border 
Protection's efforts to disrupt terrorist travel.
    On the 11th anniversary of the 9/11 terrorist attacks, CBP 
remains vigilant and focused. As the Nation's unified border 
security agency, CBP is responsible for securing our Nation's 
borders while facilitating legitimate trade and travel that is 
so vital to our economic health.
    Within this broad responsibility, our priority mission is 
to prevent terrorists and terrorist weapons from entering the 
country. As a result of this committee's support, our strong 
Government and private-sector partnerships, advances in 
technologies and applications of intelligence, CBP and DHS are 
more capable than ever before in our efforts to identify and 
mitigate terrorist threats before they reach the United States.
    A traveler's risk is now assessed from the moment he or she 
applies for a visa through the Department of State or for 
travel authorization through CBP's ESTA Program. To address the 
higher risk in the international air environment, which remains 
a primary target for terrorist organizations seeking to move 
operatives or attempt attacks, CBP leverages advanced travel 
information from air carrier reservation and check-in systems.
    CBP's National Targeting Center, or NTC, analyzes this data 
through the automated targeting system, and uses advanced 
software to apply intelligence-driven targeting rules to 
conduct risk assessments. If information indicating a potential 
risk is discovered, NTC will issue a no-board recommendation to 
air carriers, preventing travel of a suspect individual.
    Internationally, the NTC supports the work of CBP's 
Immigration Advisory Program to extend the Nation's zone of 
security beyond our physical borders to 11 airports in nine 
foreign countries, where we work with carriers and foreign 
authorities to identify and address potential threats prior to 
boarding.
    To put our pre-departure efforts in context, in fiscal year 
2009, before the Christmas day attempt, the NTC and IAP teams 
made fewer than 500 no-board recommendations to carriers for 
security purposes. This fiscal year, in contrast, the NTC and 
IAP teams have made almost 4,000 no-board recommendations, a 
dramatic increase that has have enhanced the security of our 
borders and international air travel.
    While the focus of our pre-departure work is the air 
environment, we also maintain robust protocols upon arrival at 
U.S. ports of entry. Prior to admission at any U.S. port of 
entry, whether by air, land, or sea, CBP officers further 
assess traveler risk by scanning entry and identity documents, 
conducting personal interviews, and running appropriate 
biometric and biographic queries against law enforcement 
databases.
    If there are any matches to suspected terrorist records, 
CBP activates its counter-terrorism response protocols. These 
protocols are aided by the fact that the National Targeting 
Center has become a critical interagency counter-terrorism 
resource, with representatives from over a dozen departments 
and agencies, including full units from ICE, TSA, the U.S. 
Coast Guard, and soon to be the Department of State.
    Together we are assessing risk at each stage in the travel 
cycle and working together to enhance our collective response.
    As this committee is well aware, we continue to live in a 
world of ever-changing threats. We must adapt and evolve to 
identify and address security gaps and anticipate 
vulnerabilities. CBP will continue to be at the forefront of 
the global effort against terrorism. We will work with our 
colleagues within DHS, Department of State, and the 
intelligence and law enforcement communities to meet these 
challenges.
    Thank you again for the opportunity to testify about our 
work at CBP on this solemn anniversary. I look forward to 
answering your questions.
    [The prepared statement of Mr. McAleenan follows:]
                  Prepared Stateent of Kevin McAleenan
                           September 11, 2012
    Good morning Chairman Miller, Ranking Member Cuellar, and 
distinguished Members of the subcommittee. Thank you for the 
opportunity to appear before you to represent U.S. Customs and Border 
Protection (CBP) and, on this solemn anniversary, to discuss our 
efforts to disrupt terrorist travel and promote travel security. I 
appreciate the committee's leadership and your continued efforts to 
ensure the security of the American people.
               cbp's actions to prevent terrorist travel
    As the unified border security agency of the United States, CBP is 
responsible for securing our Nation's borders while facilitating the 
flow of legitimate international travel and trade that is so vital to 
our Nation's economy. Within this broad responsibility, our priority 
mission remains to prevent terrorists and terrorist weapons from 
entering the United States.
    To do this, CBP works in close partnership with the Federal 
counterterrorism community, including law enforcement agencies, the 
intelligence community, U.S. Immigration and Customs Enforcement (ICE), 
the Transportation Security Administration (TSA), the Department of 
State, State and local law enforcement, the private sector, and our 
foreign counterparts to improve our ability to identify risks as early 
as possible in the travel continuum, and to implement security 
protocols for addressing potential threats. CBP works with its 
counterparts to apply its capabilities at multiple points in the travel 
cycle to increase security by receiving advance information, employing 
sophisticated targeting systems to detect risk, and acting through a 
global network to address risks or prevent the movement of identified 
threats toward the United States at the earliest possible point in 
their travel.
    In concert with its partners, CBP strives to ensure that travelers 
who present a risk are appropriately interviewed or vetted before 
boarding a flight bound for the United States, and that any document 
deficiencies are addressed before traveling to the United States. CBP 
has placed officers in strategic airports overseas to work with 
carriers and host nation authorities, and has built strong liaisons 
with airline representatives to improve our ability to address threats 
as early as possible and effectively expand our security efforts beyond 
the physical borders of the United States.
    These efforts seek to keep our transportation sectors safe and 
prevent threats from ever reaching the United States. These efforts 
also enhance efficiency and create savings for the U.S. Government and 
the private sector by preventing inadmissible travelers from traveling 
to the United States.
                      travel to the united states
    Given that commercial air transportation remains the primary target 
of terrorist organizations seeking to attack the homeland or move 
operatives into the United States, my testimony will focus on 
international air travel. CBP inspects nearly 1 million travelers each 
day as they enter the United States, and about 30 percent--almost 100 
million a year--of these travelers arrive via commercial aviation. CBP 
has developed and strategically deployed resources to detect, assess 
and, if necessary, mitigate the risk posed by travelers throughout the 
international travel continuum. CBP and its partners work to address 
risk at each stage in the process: (1) The time of application to 
travel; (2) ticket purchase or reservation; (3) check-in at a foreign 
airport; and (4) arrival in the United States. Aspects of this strategy 
are highlighted below.
Application to Travel
    In general, most non-U.S. citizens wishing to travel to the United 
States need to either apply for a visa from the Department of State 
(DOS) at a U.S. Embassy or Consulate, or a travel authorization from 
CBP via the Electronic System for Travel Authorization (ESTA). CBP 
plays an important role in each of these processes.
            Non-Immigrant Visa Process
    Travelers that require Non-Immigrant Visas (NIVs) to travel to the 
United States must apply to DOS to be a temporary visitor under 
specific visa categories, including those for business, pleasure, 
study, and employment-based purposes.
    DOS manages the process of initially vetting visa applicants 
including biometric and biographic checks. DOS Consular Officers then 
adjudicate the visa application, which may include an interview of the 
applicant, to determine eligibility. Applicants suspected of committing 
fraud or suspected of other criminal or terrorist links are referred to 
DOS, or the appropriate agency, for additional investigation.
    CBP operates and monitors the Visa Hot List, a tool to re-vet 
previously-issued visas against lookout records, to identify persons 
whose eligibility for a visa or entry to the United States has changed 
since the issuance of that visa. Relevant information that is uncovered 
is passed to DOS, ICE, or other agencies as appropriate. This 
continuous re-vetting by CBP has resulted in the revocation of over 
more than 3,000 visas by DOS since its inception in March 2010.
    To further enhance visa screening efforts, ICE, CBP, and DOS are 
collaborating on the development of an automated visa application 
screening process that will broaden the scope to identify potential 
derogatory information prior to visa adjudication and issuance, and 
synchronize reviews of the information across these agencies. This 
process may be used as a precursor to and in conjunction with the 
current DOS Security Advisory Opinion (SAO) and Advisory Opinion (AO) 
programs. The joint program will leverage the three agencies' 
expertise, authorities, and technologies, such as CBP's Automated 
Targeting System (ATS), to screen pre-adjudicated visa applications. It 
will significantly enhance the U.S. Government's anti-terrorism 
efforts, improving the existing process by extending our borders 
outward and denying high-risk applicants the ability to travel to the 
United States.
            Electronic System for Travel Authorization (ESTA)
    Since 2009, travelers traveling to the United States by air or sea 
and intending to apply for admission under the Visa Waiver Program 
(VWP),\1\ must first apply for travel authorization through CBP's on-
line application system, the Electronic System for Travel Authorization 
(ESTA). Through this process, CBP incorporates targeting and database 
checks to identify those who are statutorily ineligible to enter the 
United States under the VWP and those who may pose a National security 
or criminal threat if allowed to travel. The majority of ESTA 
applications are approved; however, if derogatory information is 
revealed during the vetting process, the application is denied and the 
applicant is directed to DOS to initiate a formal visa application 
process. In fiscal year 2012 (through August 2012), CBP has vetted over 
10.7 million ESTA applications and denied more than 21,000.
---------------------------------------------------------------------------
    \1\ The 36 countries currently designated for participation in the 
Visa Waiver Program include: Andorra, Australia, Austria, Belgium, 
Brunei, the Czech Republic, Denmark, Estonia, Finland, France, Germany, 
Greece, Hungary, Iceland, Ireland, Italy, Japan, South Korea, Latvia, 
Liechtenstein, Lithuania, Luxembourg, Malta, Monaco, the Netherlands, 
New Zealand, Norway, Portugal, San Marino, Singapore, Slovakia, 
Slovenia, Spain, Sweden, Switzerland, and the United Kingdom.
---------------------------------------------------------------------------
Ticket Purchase/Reservation
            Passenger Name Record
    As part of CBP's layered enforcement and risk segmentation 
approach, the next opportunity to review a traveler's information 
occurs upon the purchase of a ticket, when the carrier creates a 
Passenger Name Record (PNR). All commercial airlines are required to 
make their PNR systems and data available to CBP. The PNR is provided 
to CBP up to 72 hours in advance of travel, which permits CBP to 
conduct research and risk segmentation on all travelers including U.S. 
citizens and non-U.S. citizens. At this point, CBP, in cooperation with 
other Government agencies, begins a more comprehensive assessment of 
each traveler's risk by reviewing his/her travel documents, responses 
to questions on the ESTA or visa application, travel companions, and 
patterns of travel to identify those who may be ineligible to travel or 
who may warrant additional vetting.
Check-in
            Advance Passenger Information System
    Advance Passenger Information System (APIS) regulations require 
that carriers transmit all passenger and crew manifest information 
before departure, prior to securing the aircraft doors. APIS data 
includes the biographic traveler information that is found in a 
passport, such as a name and date of birth. APIS data also includes 
itinerary information, such as the date of travel and flight 
information. This information is used by CBP, in conjunction with the 
PNR data, to identify known or suspected threats before they depart the 
foreign location.
    In 2007, CBP published the APIS Pre-Departure Final Rule, enabling 
CBP systems to conduct vetting prior to passengers gaining access to 
the aircraft or departing on-board a vessel. This regulation added an 
essential layer to our anti-terrorism security measures. As part of the 
implementation of the regulation, CBP developed an interactive 
communications functionality where carriers can transmit single-
passenger APIS messages as passengers check-in and receive an automated 
response message.
    As part of the Department of Homeland Security (DHS) commitment to 
establish a common reporting process for carriers submitting traveler 
information to DHS components, CBP and TSA aligned the CBP APIS Pre-
Departure requirements with those of the TSA Secure Flight program, so 
that air carriers transmit data once and receive a combined DHS 
response message that includes both the TSA Secure Flight screening 
results and the traveler's ESTA status. This consolidated information 
helps carriers make informed boarding decisions. CBP is currently 
expanding this capability to include a document validation check, to 
provide confirmation to the airlines that the individual's visa is 
valid as well.
            National Targeting Center
    CBP leverages all available advance passenger data including the 
PNR and APIS data, previous crossing information, intelligence, and law 
enforcement information, as well as open-source information in its 
anti-terrorism efforts at the National Targeting Center (NTC). The NTC 
is a 24/7 operation that makes extensive use of intelligence materials 
and law enforcement data, allowing analysts and targeting officers to 
make tactical decisions at all points along the travel continuum. 
Starting with the earliest indications of potential travel, including 
United States-bound travel reservations, ESTA applications, visa 
applications, and passenger manifests, and continuing through the 
inspection or arrivals process, the NTC is continually analyzing 
information gleaned from these sources using CBP's Automated Targeting 
System (ATS). ATS is a decision-support tool for CBP officers which 
compares information on travelers arriving in, transiting through, and 
exiting the country against law enforcement and intelligence databases 
to identify individuals requiring additional scrutiny. This information 
is also matched against targeting rules developed by subject matter 
experts. Targeting rules are based on actionable intelligence derived 
from current intelligence community reporting or other law enforcement 
information available to CBP.
    NTC analyzes each traveler's risk before departure to identify 
possible matches to the U.S. Government's consolidated terrorist watch 
list, Interpol lost and stolen passports, criminal activity, fraud, and 
other mala fide travelers, including U.S. citizens. Through direct 
networks with commercial airlines and connections to CBP officers 
overseas as part of the Immigration Advisory Program (IAP), NTC 
officials are able to issue no-board recommendations to the airline to 
keep suspected high-risk passengers from traveling to the United 
States. In fiscal year 2011, NTC made 3,181 no-board recommendations to 
carriers. In fiscal year 2012 (through August 2012), there have been 
more than 3,600 no-board recommendations. The NTC vetting process for 
international passengers continues while the flight is en route to the 
United States in order to identify any travelers who, although they may 
not be National security risks, may need to be referred for a more 
thorough inspection at the first port of entry upon arrival in the 
United States for other potential violations.
    In addition to expanding the Nation's zone of security beyond the 
United States and improving operational efficiency, NTC pre-departure 
programs result in significant monetary savings by preventing 
inadmissible passengers from boarding flights destined to the United 
States, where upon arrival most of them likely would have to be 
processed by CBP for refusal or removal, generating detention costs for 
the U.S. Government and additional repatriation expenses for commercial 
carriers.
    In a recent effort to make CBP passenger and cargo targeting more 
effective, the NTC was established as a stand-alone entity in the 
Office of Field Operations with greater responsibility for CBP 
passenger and cargo targeting operations at the port of entry. The NTC 
continues to improve its operations as DHS and CBP anti-terrorism 
targeting requirements expand by exploring new and innovative ways to 
identify, interdict, or deter terrorists, their weapons, and their 
supporters.
            Immigration Advisory Program
    IAP is another integral component of CBP's layered security 
approach. With advance targeting support from the NTC, IAP officers 
work in partnership with foreign law enforcement officials, to identify 
and prevent terrorists and other high-risk passengers, and then work in 
coordination with commercial air carriers to prevent these individuals 
from boarding flights destined to the United States. Maximizing the use 
of new mobile technology to enhance on-site targeting, IAP officers 
conduct passenger interviews and assessments to evaluate the potential 
risks presented by non-watchlisted travelers. The IAP is currently 
operational at 11 airports in 9 countries including Amsterdam, Doha, 
Frankfurt, London Heathrow and Gatwick, Madrid, Manchester, Mexico 
City, Panama City, Tokyo, and Paris.
    Since the inception of the program in 2004, IAP officers have been 
successful in preventing the boarding of more than 15,700 high-risk and 
improperly documented passengers, to include matches to the TSDB.
            Arrival at a U.S. Port of Entry
Arrival Processing
    Upon arrival in the United States, all persons are subject to 
inspection by CBP officers. Upon application for admission to the 
United States, this inspection begins with CBP officers scanning the 
traveler's entry document and performing a query of various CBP 
databases for exact or possible matches to existing lookouts, including 
those of other law enforcement agencies. The system queries the 
document information against the APIS manifest information previously 
received from the carrier and provides any enforcement information 
about the traveler to the officer for appropriate action. APIS data is 
verified for completeness and accuracy through this process.
    For most foreign nationals arriving at U.S. airports, fingerprint 
biometrics and photographs are captured by CBP officers. If the 
traveler has been previously fingerprinted, either at time of visa 
application or during a previous trip to the United States, the newly 
captured fingerprints will be compared to the originals to ensure the 
fingerprints match. Once a verified identity is established, the system 
will identify any watch list information and return the results to the 
officer for appropriate processing. If the traveler has not been 
previously fingerprinted, the officer will collect all ten fingerprints 
and a biometric watch list search will be conducted, returning the 
search results to the officer. In addition to the biographic and 
biometric system queries performed, each traveler is interviewed by a 
CBP officer to determine the purpose and intent of their travel, and 
whether any further inspection is necessary based on concerns for 
National security, identity or admissibility, customs, or agriculture.
    If upon review of the system queries there are any exact or 
possible matches to the TSDB, including potential matches to the ``No-
Fly'' List, or other law enforcement lookouts, the NTC will be notified 
and coordinate with the port of entry for appropriate disposition or 
action. Additionally, CBP has established a Counter-Terrorism Response 
(CTR) protocol at ports of entry for passengers arriving with possible 
links to terrorism. CTR protocol mandates immediate NTC notification, 
initiating coordination with the Terrorist Screening Center (TSC), the 
National Counter Terrorism Center (NCTC), ICE, and the Federal Bureau 
of Investigation (FBI) Terrorist Screening Operations Unit (TSOU), and 
National Joint Terrorism Task Force (NJTTF).
    For CBP's Preclearance locations in Aruba, Bermuda, the Bahamas, 
Canada, and Ireland, customs, agriculture, and immigration inspection 
and examination typically occurs at the Preclearance location instead 
of upon arrival in the United States. Therefore, this process allows 
the aircraft to arrive at a domestic airport gate in the United States 
and travelers may proceed to their final destination without further 
CBP processing; however, CBP may conduct further inspection or engage 
in enforcement action after a pre-cleared flight departing from a 
preclearance location arrives in the United States.
    For CBP land border locations, the Western Hemisphere Travel 
Initiative (WHTI) implemented the first 9/11 Commission border security 
recommendation and legislative mandate by reducing the number of 
acceptable travel documents from more than 8,000 to a core set of six 
secure documents types which can be automatically queried via law 
enforcement databases as the vehicle approaches the CBP officer. Today, 
more than 16 million individuals have obtained Radio Frequency 
Identification (RFID) technology-enabled secure travel documents, which 
can be verified electronically in real-time back to the issuing 
authority, to establish identity and citizenship. The implementation of 
WHTI in the land border environment, and the increased use of RFID-
enabled secure travel documents, have allowed CBP to increase the 
National law enforcement query rate, including the terrorist watch 
list, to over 98 percent. By comparison, in 2005, CBP performed law 
enforcement queries in the land border environment for only 5 percent 
of travelers.
    As of June 2009, all major land border ports, representing 95 
percent of all inbound vehicle traffic, have been upgraded to include 
improved license plate readers, RFID readers, and improved processing 
applications to facilitate the inspection of travelers and vehicles 
using the new RFID-enabled travel documents. Since June 2009, the 
average number of imposter apprehensions, counterfeit and altered 
documents seized has declined to 42 per day from 84 per day (a 50 
percent decrease).
            Outbound: Air, Land, and Sea
    In addition to vetting inbound flights for high-risk travelers, CBP 
also developed protocols to enhance outbound targeting efforts within 
ATS, with the goal of identifying travelers who warrant outbound 
inspection or apprehension. Outbound targeting programs identify 
potential matches to the TSDB, including potential matches to the ``No-
Fly'' List, as well as National Criminal Information Center fugitives, 
and subjects of active currency, narcotics, and weapons investigations. 
Additionally, outbound operations are enhanced by the implementation of 
targeting rules designed to identify and interdict subjects with a 
possible nexus to terrorism or links to previously identified terrorist 
suspects. As with inbound targeting rules, outbound targeting rules are 
continually adjusted to identify and interdict subjects of interest 
based on current threat streams and intelligence. Advance outbound 
manifest information is also obtained through the APIS system from 
carriers for all passengers 30 minutes prior to departure or if using 
the APIS Quick Query mode, then carriers can transmit in real time as 
each passenger checks in for the flight prior to boarding.
    As soon as APIS information becomes available, prior to the 
departure of a commercial conveyance, CBP and the TSA immediately begin 
the screening and vetting processes of the outbound flight for possible 
inclusion in the TSDB, including potential matches to the ``No-Fly'' 
and Selectee List, as well as other law enforcement lookouts, using any 
and all available biographic information of the traveler. CBP's law 
enforcement capability and commitment to National security, through the 
monitoring and vetting of outbound flights, were highlighted on May 1, 
2010 when CBP officers arrested Faisal Shazad as the man suspected in 
the Times Square car bomb plot as he attempted to flee the country on a 
flight destined to Dubai. Shazad had, hours before, come to the 
attention of Federal law enforcement authorities in part because of 
data collected by CBP. Later, when Shazad tried to flee the country by 
purchasing a ticket on his way to the airport, it was CBP's collection 
of API data that alerted us to his presence on the flight for Dubai, 
enabling us to take him into custody before the plane departed. CBP's 
capabilities were also evident in September 2009 when Najibullah Zazi 
plotted an attack against the New York City subway system; in this 
case, CBP's databases led to the identification of two of Zazi's 
previously unknown co-conspirators. One pled guilty in April 2010 and 
the other was found guilty on May 21, 2012. Also, in October 2009, 
David Coleman Headley was arrested and pled guilty to plotting attacks 
in Copenhagen and conducting surveillance in support of the November 
2008 attacks in Mumbai, India; CBP identified Headley using partial 
name and travel routing provided by FBI.
                               conclusion
    CBP is committed to protecting our country from terrorists and 
terrorist weapons while ensuring safe international travel and 
facilitating legitimate trade. CBP is continually updating and 
adjusting our programs to enhance the overall efficiency of how we 
operate in this ever-changing global environment. As part of our 
mission, CBP fosters partnerships and encourages cooperation with the 
law enforcement community, industry, and foreign governments. CBP has 
built a multi-layered approach for screening and identifying potential 
travelers to the United States who may pose a threat to the homeland 
and will continue to use all means within our authority to protect the 
Nation and its citizens. Thank you for allowing me the opportunity to 
testify before you today, and I look forward to answering your 
questions. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mrs. Miller. Thank you very much.
    The Chairwoman now recognizes Mr. Woods for his testimony.

   STATEMENT OF JOHN P. WOODS, ASSISTANT DIRECTOR, NATIONAL 
  SECURITY INVESTIGATIONS, HOMELAND SECURITY INVESTIGATIONS, 
 IMMIGRATIONS AND CUSTOMS ENFORCEMENT, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Woods. Thank you, Chairwoman Miller. Chairwoman Miller, 
Ranking Member Cuellar, and distinguished Members of the 
subcommittee, thank you for the opportunity to discuss ICE's 
efforts to prevent terrorist travel and the exploitation of our 
immigration system.
    Visa overstays and other forms of status violation bring 
together two critical areas of ICE's mission, both National 
security and immigration enforcement. The importance of 
determining who to allow to enter the United States and 
ensuring compliance with conditions of such entry cannot be 
overstated.
    As you know, ICE's Visa Security Program, or VSP, 
interdicts criminals, terrorists, and others who would exploit 
our legal visa process to enter the United States and serves as 
the agency's front line in protecting the United States against 
terrorist and criminal organizations.
    The VSP integrates DHS, law enforcement equities into the 
visa process to advance our Nation's border security 
initiatives. Under the VSP, ICE special agents are assigned to 
visa security units at high-priority diplomatic posts world-
wide to conduct visa security activities and help identify 
potential criminal and terrorist threats before they would have 
the opportunity to reach our ports of entry.
    The VSP currently screens and vets selected non-immigrant 
and immigrant visa applications prior to visa issuance. In 
support of our efforts to enhance visa security measures, 
representatives on the panel here today from ICE, CBP, 
Department of State, including the U.S. intelligence community, 
are developing an automated visa screening process that will 
enable ICE to identify derogatory information related to all 
non-immigrant visa applicants prior to their adjudication by 
consular offices.
    This process may be used as a precursor to or in 
conjunction with our current Department of State Security 
Advisory Opinion and Advisory Opinion Programs. When an alien 
files for non-immigrant visa application electronically, it 
goes to the Department of State's Consular Electronic 
Application Center, or the CEAC.
    ICE's information technology modernization efforts will 
allow ICE to obtain the non-immigrant visa application 
information directly from CEAC, screen it against DHS and 
intelligence community data before it goes to consular offices 
for adjudication. This automated screening process will 
significantly enhance the U.S. Government's anti-terrorism 
efforts by aiding another layer of security to our border 
protection efforts.
    In addition to VSP, ICE's Counter-Terrorism and Criminal 
Exploitation Unit, or the CTCEU, is dedicated to the 
enforcement of non-immigrant visa violation. Today through the 
CTCEU, ICE proactively develops cases for investigation through 
the Student Exchange Visitor Program and the US-VISIT Program.
    These programs enable ICE to access information about 
millions of students, tourists, and temporary workers present 
in the United States at any given time, and identify those who 
have overstayed or otherwise violated the terms of their 
condition of admission.
    Special agents and analysts at ICE monitor the latest 
threat reports and proactively address emergent issues. This 
practice has contributed to ICE's counter-terrorism mission by 
supporting high-priority National security initiatives based on 
specific intelligence.
    The practice is designed to identify individuals exhibiting 
specific respecters risk factors on intelligence reporting, 
including international travel from specific geographic 
locations and in-depth research of dynamic social networks. 
This person-centric approach of non-immigrant prioritization 
moves away from our traditional methods of identification and 
thereby enhances the way threats are identified and resolved.
    As we move forward, it is imperative that we continue to 
expand the Nation's enforcement efforts concerning overstays 
and other status violations, with special emphasis on those who 
threaten our National security and public safety. Accordingly, 
ICE is analyzing various approaches to this issue, including 
sharpening the focus of programs that address vulnerabilities 
that are exploited by visa violators, such as the DHS Overstay 
Initiative and CTCEU's School Fraud Targeting Program.
    Effective border security measures require broad 
information sharing and cooperation among U.S. agencies. On 
January 11, 2011, ICE signed a memorandum of understanding 
outlining the roles and responsibilities and collaboration 
between ICE and the Department of State's Consular Affairs and 
Diplomatic Security.
    This MOU governs the day-to-day operations of ICE agents 
conducting visa security operations at U.S. embassies and 
consulates abroad. To facilitate this information sharing, it 
reduces duplication of efforts by both ICE and the Department 
of State by supporting collaborative training and orientation 
prior to overseas assignments.
    The VSP at high-priority U.S. embassies and consulates 
brings an important law enforcement element to the visa review 
process. This relationship serves as an avenue for VSP 
personnel to alert consular offices and other U.S. Government 
personnel to potential security risks.
    More than a decade after the 9/11 attacks, ICE has made 
significant progress in preventing terrorists from exploiting 
our visa process. We look forward to working closely with the 
subcommittee in the future to enhance those efforts.
    I want to thank you again for the opportunity to appear 
today. I would be pleased to answer any questions you have.
    [The prepared statement of Mr. Woods follows:]
                  Prepared Statement of John P. Woods
                           September 11, 2012
                              introduction
    Chairwoman Miller, Ranking Member Cuellar, and distinguished 
Members of the subcommittee: Thank you for the opportunity to discuss 
the efforts of U.S. Immigration and Customs Enforcement (ICE) to 
prevent terrorist travel and the exploitation of our immigration 
system. Visa overstays and other forms of status violation bring 
together two critical areas of ICE's mission--National security and 
immigration enforcement--and the importance of determining whom to 
allow to enter the United States and ensuring compliance with the 
conditions of such entry cannot be overstated.
                    the visa security program (vsp)
    The Visa Security Program (VSP) interdicts criminals, terrorists, 
and others who would exploit the legal visa process to enter the United 
States and serves as ICE's front line in protecting the United States 
against terrorist and criminal organizations. The VSP integrates DHS 
law enforcement equities into the visa process to advance the Nation's 
border security initiatives. Under VSP, ICE agents are assigned to Visa 
Security Units (VSU) at high-priority diplomatic posts worldwide to 
conduct visa security activities and help identify potential criminal 
and/or terrorist threats before they reach a United States port of 
entry.
    The ICE VSP currently screens and vets selected non-immigrant and 
immigrant visa applications prior to visa issuance. In support of ICE 
VSP efforts to enhance visa security measures, representatives from 
DHS, ICE, U.S. Customs and Border Protection (CBP), the U.S. Department 
of State (DOS), and the U.S. intelligence community are developing an 
automated visa screening process that will enable DHS entities to 
identify derogatory information relating to all non-immigrant visa 
applicants prior to adjudication of their visa application by DOS 
consular officers. This process may be used as a precursor to, and in 
conjunction with, the current DOS Security Advisory Opinion and 
Advisory Opinion programs.
    When an alien files a non-immigrant visa application 
electronically, it goes to the DOS Consular Electronic Application 
Center (CEAC) and is transmitted to DHS for screening against CBP and 
other DHS and intelligence community data. Through the automated visa 
screening process, currently under development, the information 
identified through this process will provide DOS consular officers 
information they can use in their interviews to address concerns raised 
by the VSP findings, adding another layer of security to our border 
protection efforts, in turn denying mala fide travelers access to the 
United States.
    For the automated visa screening process under development, a 
proposed coordinated review process will be conducted by ICE and CBP. 
This process will include the capability to utilize CBP vetting 
methodologies, to address specific threats identified by the 
intelligence community, to provide detailed case notes and 
justifications for any recommendations for consular officers related to 
visa issuance, and to recommend applicants for targeted interviews, and 
incorporate feedback from DOS consular officers. DHS will work 
cooperatively with DOS to refine the review process to ensure the 
information provided is relevant, supported by immigration law, and 
efficient. A future expansion of this system will incorporate pre-
adjudicative screening and vetting of immigrant visa applications.
    Additionally, ICE has deployed Homeland Security Investigations 
(HSI) special agents assigned to the VSP to the National Targeting 
Center (NTC) and the National Counterterrorism Center (NCTC) to augment 
and expand current operations. The NTC provides tactical targeting and 
analytical research in support of preventing terrorists and terrorist 
weapons from entering the United States. The co-location of HSI special 
agents at the NTC and NCTC have helped to increase both communication 
and information sharing.
            the student and exchange visitor program (sevp)
    The Student and Exchange Visitor Program (SEVP) is a part of the 
National Security Investigations Division and facilitates information 
sharing among relevant Government partners on nonimmigrants whose 
primary reason for coming to the United States is to be students. On 
behalf of DHS, SEVP covers schools, nonimmigrant students in the F and 
M visa classifications and their dependents. The Student Exchange 
Visitor Information System (SEVIS) is the database that SEVP manages 
that monitors schools that have been certified by DHS to enroll foreign 
students, and the exchange visitor programs designated by the DOS to 
sponsor exchange visitors. SEVIS contains the records of more than 1.1 
million active nonimmigrant students, exchange visitors, and their 
dependents, as well as nearly 10,000 SEVP-certified institutions.
    SEVP regulates schools' eligibility to enroll foreign individuals 
for academic and vocational training purposes and manages the 
participation of SEVP-certified schools in the student and exchange 
visitor program, and nonimmigrant students in the F (academic) and M 
(vocational) visa classifications and their dependents. DOS manages the 
Exchange Visitor Program for nonimmigrants in the J (exchange visitor) 
visa classification.
    SEVP is responsible both for certifying schools and for withdrawing 
certification from non-compliant schools. The certification process 
assists in the important functions of furthering National security and 
the integrity of our Nation's borders, by providing consistent, 
comprehensive oversight while preserving the rich tradition of 
welcoming nonimmigrant students and exchange visitors.
    SEVP collects, maintains, and provides information to interagency 
partners so that only legitimate foreign students and exchange visitors 
gain entry to, and remain in, the United States. The result is an 
easily accessible system that provides timely information to support 
ICE's law enforcement mission, as well as to our DHS partner agencies, 
CBP and U.S. Citizenship and Immigration Services, and other Federal 
agencies. Additionally, the data maintained by SEVP in SEVIS support 
the DOS's Bureau of Consular Affairs visa process by providing advanced 
electronic data on nonimmigrant visa applicants prior to visa issuance.
    The student and exchange visitor programs that bring F, J, and M 
visa holders to the United States are of immense value to all countries 
involved, as they serve to strengthen international relations and 
foster intercultural understanding. These programs produce economic 
benefits as well; the U.S. Department of Commerce estimates that 
foreign students and exchange visitors contributed more than $21 
billion to the U.S. economy through their expenditures on tuition and 
living expenses during the 2010-2011 academic year.
      the counterterrorism and criminal exploitation unit (ctceu)
    Created in 2003, the Counterterrorism and Criminal Exploitation 
Unit is ICE's National program dedicated to the enforcement of 
nonimmigrant visa violations. Today, through the CTCEU, ICE proactively 
develops cases for investigation in cooperation with the SEVP and the 
United States Visitor and Immigrant Status Indicator Technology (US-
VISIT) Program. These programs enable ICE to access information about 
the millions of students, tourists, and temporary workers present in 
the United States at any given time, and identify those who have 
overstayed or otherwise violated the terms and conditions of their 
admission.
    Each year, the CTCEU analyzes records on hundreds of thousands of 
potential status violators from SEVIS and US-VISIT, along with other 
information. These records are reviewed for potential violations that 
would warrant field investigations, such as establishing compliance or 
confirming departure from the United States, or determining if 
additional derogatory information is available for analysis. Between 
15,000 and 20,000 of these records are resolved by in-house analysts 
each month. Since its creation, analysts have resolved more than 2 
million such records using automated and manual review techniques. On 
average, ICE opens approximately 6,000 investigative cases annually, 
and assigns them to our special agents in the field for further 
investigation.
    Agents and analysts in ICE monitor the latest threat reports and 
proactively address emergent issues. This practice has contributed to 
ICE's counterterrorism mission by supporting high-priority National 
security initiatives based upon specific intelligence. The practice is 
designed to identify individuals exhibiting specific risk factors based 
on intelligence reporting, including international travel from specific 
geographic locations to the United States, and in-depth criminal 
research and analysis of dynamic social networks. This person-centric 
approach to nonimmigrant prioritization moves away from the traditional 
methods of identification, thereby enhancing the way threats are 
identified and resolved.
    In order to ensure that the potential violators who pose the 
greatest threats to National security are given priority attention, ICE 
uses intelligence-based criteria, developed in close consultation with 
the intelligence and law enforcement communities. ICE assembles the 
Compliance Enforcement Advisory Panel (CEAP) on a tri-annual basis to 
ensure that it uses the latest threat intelligence to target 
nonimmigrant overstays and status violators who pose the greatest 
threats to National security and to discuss possible changes based on 
current threat trends. The CEAP is composed of members from the Federal 
Bureau of Investigation (FBI), the NCTC, DHS Office of Intelligence and 
Analysis, and other intelligence community members.
    An ICE investigation in Los Angeles, California exemplifies how the 
CTCEU operates. In March 2011, the CTCEU received an INTERPOL blue 
notice concerning a person who traveled to the United States as a 
tourist. A blue notice seeks information (e.g., identity, criminal 
record) on subjects who have committed criminal offenses, and is used 
to trace and locate a subject where extradition may be sought (i.e., 
offenders, witnesses). The individual at issue in the Los Angeles 
investigation had an arrest warrant in connection with child 
pornography charges in Colombia. A week later, ICE special agents 
arrested the person who was admitted as a visitor and violated the 
terms of admission by working in the adult film industry.
    Likewise, in March 2010, ICE's Counterterrorism and Criminal 
Exploitation Group in Miami, Florida, initiated ``Operation Class 
Dismissed,'' a criminal investigation that led to the indictment of the 
owner/operator of a Miami-based foreign language school and one of its 
employees on four counts of conspiring to commit a criminal offense 
against the United States. The owner and employee were suspected of 
fraudulently sponsoring foreign students by certifying students as 
nonimmigrants, without requiring them to maintain full courses of study 
to comply with the terms of their admission. ICE's primary focus in 
these types of investigations is the criminal violations of the 
business owner/operators and administrative violations of the students. 
This ICE investigation revealed that only approximately 5 percent of 
the school's students attended class on any given day. In addition to 
the indictment, follow-up investigation resulted in the administrative 
arrests of 116 student visa violators purported to be attending the 
school from multiple countries.
    The CTCEU tracks 75 active criminal investigations each year. Since 
June 2010, HSI special agents have criminally arrested 39 school owners 
or officials related to fraud or and misuse of student visas. 
Additionally, 10 foreign nationals residing outside of the United 
States have been arrested for various student visa fraud schemes. 
During fiscal year 2012, HSI special agents have conducted 760 school 
outreaches Nation-wide, which represents a 400 percent increase over 
the previous fiscal year. CTCEU has reviewed 476 schools for fraud or 
National security anomalies that have resulted in 11 criminal 
investigations. All of this is being completed in concert with SEVP's 
on-going efforts to effectively build our Nation's population of well-
qualified international students to a number that is as robust as that 
of pre-9/11. SEVP continues to work to close vulnerabilities within the 
program.
    As we move forward, it is imperative that we continue to expand the 
Nation's enforcement efforts concerning overstays and other status 
violations with special emphasis on those who threaten National 
security or public safety. Accordingly, ICE is analyzing various 
approaches to this issue, including sharpening the focus of programs 
that address vulnerabilities exploited by visa violators, such as the 
DHS Overstay Initiative and school fraud targeting by CTCEU.
          coordination with us-visit and other dhs components
    CTCEU also works in close collaboration with US-VISIT, part of the 
DHS's National Protection and Programs Directorate. US-VISIT supports 
DHS's mission to protect our Nation by providing biometric 
identification services to Federal, State, and local Government 
decision makers to help them accurately identify the people they 
encounter, and determine whether those people pose risks to the United 
States. DHS's use of biometrics under the US-VISIT program is a 
powerful tool in preventing identity fraud and ensuring that DHS is 
able to rapidly identify criminals and immigration violators who try to 
cross our borders or apply for immigration benefits under an assumed 
name. Interoperability between the FBI Criminal Justice Information 
Service's IAFIS and US-VISIT's Automated Biometric Identification 
System (IDENT), which includes the sharing of biometric information, is 
the foundation of ICE's Secure Communities program.
    US-VISIT also analyzes biographical entry and exit records stored 
in its Arrival and Departure Information System to further support 
DHS's ability to identify international travelers who have remained in 
the United States beyond their periods of admission by analyzing 
related biographical information.
    ICE receives or coordinates nonimmigrant overstay and status 
violation referrals from US-VISIT's Data Integrity Group from several 
unique sources: Overstay violations; biometric watch list 
notifications; CTCEU Visa Waiver Enforcement Program nominations; and 
enhanced biometric exit. The first type, nonimmigrant overstay leads, 
is used by the CTCEU to generate field investigations by identifying 
foreign visitors who violate the terms of their admission by remaining 
in the United States past the date of their required departure.
    HSI generates a second type of lead from biometric data collected 
by US-VISIT. US-VISIT routinely receives fingerprint records from a 
variety of Government sources and adds them to a biometric watch list, 
including individuals of National security concern. These new watch 
list records are checked against all fingerprints in IDENT to determine 
if DHS has previously encountered the individual. If US-VISIT 
identifies a prior encounter, such as admission to the United States, 
the information is forwarded to ICE for review and possible field 
assignment. Similarly, US-VISIT monitors records for individuals who, 
at the time of admission to the United States, were the subject of 
watch list records that did not render the individuals inadmissible to 
the United States. Therefore, if such individuals overstay their terms 
of admission, information on the subjects is forwarded to ICE for 
review and possible referral to investigative field offices for follow-
up.
    The third type of lead pertains to the CTCEU's Visa Waiver 
Enforcement Program (VWEP). The Visa Waiver Program (VWP) is the 
primary source of nonimmigrant visitors from countries other than 
Canada and Mexico. Although the overstay rate from this population is 
less than 1 percent, ICE created a program dedicated to addressing 
overstays from VWP. Prior to the implementation of the VWEP in 2008, 
there was no National program dedicated to addressing VWP. CTCEU 
provides US-VISIT a list of potential VWP overstays for additional 
scrutiny. In accord with its intelligence-based criteria, the relevant 
portion of this list is given to CTCEU's lead tracking system for 
review and possible field assignment.
    Additionally, the CTCEU develops potential overstay and status 
violation leads from SEVIS and other sources, and applies intelligence-
based criteria to determine whether an investigative referral is 
appropriate. Throughout its history, the integrity of SEVIS data and 
its applicability have been valued throughout the law enforcement 
community.
    In May 2011, at the direction of Secretary Napolitano, DHS's 
Counterterrorism Coordinator organized an effort to ensure that all 
overstays, regardless of priority, receive enhanced National security 
and public safety vetting by the NCTC and CBP. As part of Phase 1 of 
this effort, DHS components reviewed a backlog of 1.6 million un-vetted 
potential overstay records based on National security and public safety 
priorities.
    As of 2010, DHS had a backlog of ``un-reviewed overstays,'' 
comprised of system-identified overstay leads, which did not meet 
criteria set by ICE for expedited high-priority review. Before the 
summer of 2011, these records would not have been examined, except in 
instances when resources allowed it. The DHS ``overstay initiative,'' 
begun in the summer of 2011 at the direction of the Secretary, reformed 
this effort.
    By leveraging capabilities within CBP's Automated Targeting System, 
as well as DHS's relationship with NCTC, DHS was able to conduct 
richer, more thorough vetting for National security and public safety 
concerns. This generated new leads for ICE, which previously would not 
have been uncovered.
                         coordination with dos
    Effective border security requires broad information sharing and 
cooperation among U.S. agencies. On January 11, 2011, ICE signed a 
memorandum of understanding (MOU) outlining roles, responsibilities, 
and collaboration between ICE and the DOS Bureaus of Consular Affairs 
and Diplomatic Security. The MOU governs the day-to-day operations of 
ICE agents conducting visa security operations at U.S. embassies and 
consulates abroad. To facilitate information sharing and reduce 
duplication of efforts, ICE and DOS support collaborative training and 
orientation prior to overseas deployments. Once they are deployed to 
overseas posts, ICE and DOS personnel work closely together in: 
Participating in working groups; coordinating meetings, training, and 
briefings; and engaging in regular and timely information sharing.
    The VSP's presence at high-priority U.S. embassies and consulates 
brings an important law enforcement element to the visa review process. 
Additionally, this relationship serves as an avenue for VSP personnel 
to alert Consular Officers and other U.S. Government personnel to 
potential security threats in the visa process.
    ICE continues to evaluate the need to screen and investigate 
additional visa applicants at high-risk visa issuing posts other than 
the 19 posts at which the agency currently operates, which were 
determined in collaboration between ICE and DOS. ICE will continue to 
conduct joint site visits with DOS to identify locations for deployment 
based on emerging threats. We are engaged with our counterparts at DOS 
in determining a common strategic approach to the broader question of 
how best to collectively secure the visa issuance process. We look 
forward to continuing to report back to you with updates on this 
process.
                   recent successes with our partners
    Working in tandem with other DHS personnel, as well as our 
international, Federal, State, local, and Tribal partners, we have 
enjoyed significant successes preventing visa fraud. I would like to 
elaborate briefly on two of these cases.
    In December 2010, ICE special agents were involved in the 
identification and investigation of a transnational alien smuggling 
organization that facilitated the illegal travel of Somali nationals 
into Yemen and on to western locations, including the United States. 
ICE special agents received information from the ICE Attache office in 
Amman, Jordan that two Somali nationals had been intercepted in Amman 
attempting to travel to Chicago using counterfeit travel documents, and 
contacted local officials in Yemen and Somalia to investigate how the 
counterfeit documents had been obtained and how the subjects had 
transited Yemen. The information developed was shared with other U.S. 
agencies at post in Sana'a via the Law Enforcement Working Group, as 
well as ICE domestic offices and the appropriate FBI Joint Terrorism 
Task Force. While the joint investigation is on-going, efforts to date 
have eliminated this scheme as a method of entry to the United States.
    In May 2011, ICE special agents within the VSP Security Advisory 
Opinion Unit (SAOU) investigated a Middle Eastern national who obtained 
a nonimmigrant visa to enter the United States by concealing his true 
identity from DOS by using a variation of his true name. Through 
vetting efforts, the SAOU identified this individual's true identity 
and revealed that he was a known terrorist with significant ties to 
other known terrorists, and who was likely involved in the planning of 
a terrorist attack in 2003. Based on this investigation and at the 
request of the VSP and SAOU, DOS revoked the individual's visa on 
National security-related grounds and prevented him from traveling to 
the United States.
                               conclusion
    More than a decade after the attacks of 9/11, ICE has made 
significant progress in preventing terrorists from exploiting the visa 
process. Thank you again for the opportunity to testify today and for 
your continued support of ICE and its law enforcement mission.
    I would be pleased to answer any questions you may have.

    Mrs. Miller. Thank the gentlemen.
    The Chairwoman now recognizes Mr. Ramotowski.

STATEMENT OF EDWARD J. RAMOTOWSKI, DEPUTY ASSISTANT SECRETARY, 
      BUREAU OF CONSULAR AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Ramotowski. Thank you, Madame Chairwoman, Ranking 
Member Cuellar, and distinguished Members of the subcommittee.
    As a consular officer with 26 years of experience in the 
U.S. Foreign Service, it is a solemn occasion for me to testify 
here today on the 11th anniversary of the September 11 attacks. 
I thank you for the opportunity to update you on how we 
continue to improve visa security to prevent such an attack 
from ever taking place again.
    Our highest priority is the safety of American citizens at 
home and abroad. Together with our partner agencies, we build a 
layered visa and border security screening system, resting on 
technological advances, biometric innovations, consular 
interviews, expanded data sharing, and improved consular 
training.
    The Department of State is constantly developing, 
implementing, and refining an intensive visa application and 
screening process. This process incorporates personal 
interviews in most cases and multiple biographic and biometric 
checks, supported by a sophisticated global information 
technology network.
    We share this data among the Department and Federal law 
enforcement and intelligence agencies. Security remains our 
primary mission.
    For us, every visa decision is a National security 
decision. Our electronic visa applications provide consular and 
fraud prevention officers, as well as our intelligence and law 
enforcement partners, the opportunity to analyze an applicant's 
data in advance of the visa interview, so that these partners 
may detect potential non-biographic links to derogatory 
information.
    We are currently working with our partners on two major 
initiatives to screen more of this data with the law 
enforcement and intelligence communities, and make the visa 
system even more secure.
    In addition to these biographic checks, the Department 
screens the fingerprints of visa applicants against DHS and FBI 
databases, and uses facial recognition technology to check 
applicants against a watch list of photos obtained from the 
Terrorist Screening Center, as well as visa applicant photos 
contained in our Consular Consolidated Database.
    Other agencies access our large database of visa 
information for security screening, law enforcement, and 
counter-terrorism purposes. We specifically designed our 
systems to facilitate comprehensive sharing.
    We cooperate with law enforcement and intelligence 
agencies, and benefit from their capabilities and resources. 
This is most dramatically evident in the continuous vetting of 
visa holders, so that derogatory information that surfaces 
after a visa is issued is promptly reviewed, and the visa 
revoked, if warranted, by a dedicated revocation unit on 24/7 
basis.
    More than 8,000 visas have been revoked under the 
Continuous Vetting Program since 2010.
    Consular officers are also thoroughly trained prior to 
making visa decisions. Each officer completes our consular 
course, which has a strong emphasis on border security and 
fraud prevention, and includes in-depth training on 
interviewing and name-checking techniques.
    Officers also receive continuing education in all of these 
disciplines throughout their careers. On your next trip abroad, 
I would encourage you and all Members of the committee to visit 
the consular sections of the U.S. embassy or consulate to see 
these procedures first-hand and to observe how our dedicated 
consular personnel are carrying out their border security 
responsibilities.
    Distinguished Members of the committee, our unique layered 
approach to border security screening, in which each agency 
applies its particular strengths and expertise, best serves our 
border security agenda, while furthering compelling U.S. 
interests in legitimate travel, trade promotion, and the 
exchange of ideas.
    The United States must protect and advance all of these 
interests to guarantee our long-term security.
    Thank you again for the opportunity to appear today. I am 
ready to answer your questions.
    [The prepared statement of Mr. Ramotowski follows:]
               Prepared Statement of Edward J. Ramotowski
                           September 11, 2012
    Good morning Chairwoman Miller, Ranking Member Cuellar, and 
distinguished Members of the subcommittee. It is a solemn occasion for 
me to testify here today on the 11th anniversary of September 11. I 
thank you for calling this hearing today, and for your unwavering 
commitment to visa security and prevention of terrorist travel.
    The Department of State (the ``Department'') remains dedicated to 
the protection of our borders, and has no higher priority than the 
safety of our fellow citizens at home and abroad. We are the first line 
of defense in border security, because the Department is often the 
first U.S. Government agency to have contact with foreign nationals 
wishing to visit the United States. Since the terrorist attacks of 
September 11, 2001, we and our partner agencies have built a multi-
faceted security screening process that extends our ability to review 
traveler information well before any potential threat reaches our 
borders. The lessons learned from that tragic day and subsequent 
terrorist attempts have not been ignored.
    One of the most important improvements since 2001 is the enormous 
expansion of interagency cooperation, information sharing, and 
teamwork. Multiple Federal agencies responsible for border security, 
including the Department, share increasing amounts of data and 
coordinate lookout and screening activities. Likewise, we see today an 
unprecedented level of information sharing with like-minded foreign 
governments. We and our partner agencies are committed to a layered 
approach to border security. This approach enables the U.S. Government 
to track and review the visa eligibility and status of foreign visitors 
from their visa applications throughout their travel to, sojourn in, 
and departure from, the United States.
         security improvements in the visa application process
    Often, a foreign visitor's first step in traveling to the United 
States is applying for a visa at a U.S. embassy or consulate abroad. 
The Department has built a visa system that leverages state-of-the-art 
technology, extensive information sharing, highly skilled and trained 
consular officers, and interagency cooperation to facilitate legitimate 
travel and trade without compromising our Nation's security.
    The Department constantly refines and updates the technology that 
supports the adjudication and production of U.S. visas. Under the 
Biometric Visa Program, before a visa is issued, the visa applicant's 
fingerprints are screened against two key databases. The first database 
is the Department of Homeland Security's (DHS) Automated Biometric 
Identification System (IDENT), which has a watch list containing 
available fingerprints of terrorists, wanted persons, and immigration 
law violators, as well as the entire gallery of more than 100 million 
individuals who have applied for visas, immigration benefits, and 
admission to the United States under the Visa Waiver Program (VWP), to 
combat identify fraud. The second database is the Federal Bureau of 
Investigation's (FBI) Integrated Automated Fingerprint Identification 
System (IAFIS), which contains more than 50 million criminal history 
records. More than 10,000 matches of visa applicants with records on 
the IDENT watch list are returned to posts every month, normally 
resulting in visa refusals. In 2011, IAFIS returned more than 66,000 
criminal arrest records to posts.
    The Biometric Visa Program partners with DHS' US-VISIT Program to 
enable Customs and Border Protection (CBP) officers at ports of entry 
to match the fingerprints of persons entering the United States with 
the fingerprints that were taken during the visa application process at 
overseas posts and transmitted electronically to DHS IDENT. This 
biometric identity verification at ports of entry has essentially 
eliminated the previous problems of counterfeit and photo-substituted 
visas, as well as the use of valid visas by imposters.
    The Department was a pioneer in the use of facial recognition 
techniques and remains a leader in operational use of this technology. 
Consular officers use facial recognition technology to screen all visa 
applicants against a watch list of photos of known and suspected 
terrorists obtained from the FBI's Terrorist Screening Center (TSC), as 
well as the entire gallery of visa applicant photos contained in the 
Department's Consular Consolidated Database (CCD). Currently, more than 
109 million visa applicant photos are enrolled in our facial 
recognition database. Facial recognition screening has proven to be 
effective in combating identity fraud.
    The on-line DS-160 non-immigrant visa application form is used 
worldwide, and we currently are piloting the on-line DS-260 immigrant 
visa application form. These new on-line forms provide consular and 
fraud prevention officers the opportunity to analyze data in advance of 
the visa interview, enhancing their ability to make decisions. The on-
line forms offer foreign language support but applicants must respond 
in English, to facilitate information sharing between the Department 
and other Government agencies, who are able to view visa application 
data in foreign and domestic locations.
    All visa applicants are checked against our automated Consular 
Lookout and Support System (CLASS), which contains 27 million records 
of persons found ineligible for visas, or against whom potentially 
derogatory information exists. CLASS employs strong, sophisticated 
name-searching algorithms to ensure matches between names of visa 
applicants and any derogatory information contained in CLASS. This 
robust searching capability has been central to our procedures since 
automated lookout system checks were mandated following the 1993 World 
Trade Center bombing. We use our significant and evolving experience 
with searching mechanisms for derogatory information to improve the 
systems for checking our visa issuance records constantly.
    The amount of information contained in CLASS has grown more than 
400 percent since 2001--largely the result of improved sharing of data 
among the Department, Federal law enforcement agencies, and the 
intelligence community. Almost 70 percent of CLASS records come from 
other agencies, including information from the FBI, DHS, DEA, and 
intelligence from other agencies. CLASS contains unclassified records 
on known or suspected terrorists (KSTs) from the Terrorist Screening 
Database, which is maintained by the TSC, and holds unclassified data 
on KSTs nominated by all U.S. Government sources. We also run all visa 
applicants' names against the CCD in order to detect and respond to 
derogatory information regarding visa applicants and visa holders. The 
CCD contains more than 143 million immigrant and nonimmigrant visa 
records going back to 1998. A system-specific version of the automated 
CLASS search algorithm runs the names of all visa applicants against 
the CCD to check for any prior visa applications, refusals, or 
issuances.
    In 2011, we deployed the Enterprise Case Assessment Service, a visa 
fraud tracking tool that provides a platform to store fraud-related 
research that used to be stored outside of consular systems. Should 
fraud be confirmed during the course of a visa interview, consular 
officers can record that data in this tool, and it will be permanently 
available to consular officers worldwide should the referenced 
individual re-apply for a visa. Future iterations of this tool will 
track fraud in other consular services, such as U.S. passport 
applications, and will enable us to track the activities of third-party 
document vendors and visa fixers.
          innovations in the security advisory opinion process
    The Department's Security Advisory Opinion (SAO) mechanism provides 
consular officers with the necessary advice and background information 
to adjudicate cases of visa applicants with possible terrorism or other 
security-related ineligibilities. Consular officers receive extensive 
training on the SAO process, including modules on cultural and 
religious naming conventions, which assist them in identifying 
applicants who require additional interagency vetting. The SAO process 
requires the consular officer to suspend visa processing pending 
interagency review of the case. Most SAOs are triggered by clear and 
objective circumstances, such as CLASS name check results, nationality, 
place of birth, or residence.
    In addition, in cases where reasonable grounds exist regardless of 
name check results, consular officers may suspend visa processing and 
institute SAO procedures if they suspect that an applicant may be 
inadmissible under the security provisions of the Immigration and 
Nationality Act (INA).
    In the last quarter of 2012, in conjunction with our interagency 
partners, we will pilot major improvements to the way we process SAO 
requests. These changes will not only broaden our applicant screening 
for possible terrorist connections, but will also greatly enhance our 
ability to weed out false matches and more effectively focus vetting 
resources.
                   changes to the visas viper program
    Our overseas posts provide information on foreign nationals with 
possible terrorist connections through the Visas Viper reporting 
program. Following the December 25, 2009 attempted terrorist attack on 
Northwest flight 253, we strengthened the procedures and content 
requirements for Visas Viper reporting. Chiefs of Mission are 
responsible for ensuring that all appropriate agencies and offices at 
post contribute relevant information for Viper nominations. These 
enhanced Visas Viper directives also included guidance on advanced name 
searches to identify information regarding previous or current U.S. 
visas, which must be included in Visas Viper cables; instructions 
regarding procedures and criteria used to revoke visas; and reiterated 
guidance on consular officers' use of the discretionary authority to 
deny visas under section 214(b) of the INA, with specific reference to 
cases that raise security and other concerns. Instruction in 
appropriate use of this authority has been a fundamental part of 
consular officer training for several years.
                           continuous vetting
    The Department has been continuously matching new threat 
information with our records of existing visas since 2002. We have long 
recognized this function as critical to the way we manage our records 
and processes. This system of continual vetting evolved as post-9/11 
reforms were instituted, and is now performed in cooperation with the 
TSC. All records added to the Terrorist Screening Database are checked 
against the CCD to determine if there are matching visa records. 
Matches are sent electronically from the Department to TSC, where 
analysts review the hits and flag cases for possible visa revocation. 
In addition, we have widely disseminated our data to other agencies 
that may wish to learn whether a subject of interest possesses a U.S. 
visa.
    Cases under consideration for revocation are forwarded to the 
Department by our consular offices overseas, CBP's National Targeting 
Center (NTC), and other U.S. Government entities. As soon as 
information is established to support a revocation (i.e., information 
that could lead to an inadmissibility determination), a ``VRVK'' entry 
code showing the visa revocation is added to CLASS, and to biometric 
identity systems. This information is shared immediately with the DHS 
lookout systems used for border inspection and vetting. As part of its 
Pre-Departure and Immigration Advisory Programs, CBP uses these VRVK 
records, among others, to recommend that airlines not board certain 
passengers on flights bound for the United States.
    The Department receives daily requests to review and, if warranted, 
revoke visas from aliens for whom new derogatory information has been 
discovered since the visa was issued. Our Operations Center is staffed 
24 hours a day, 7 days a week, to address urgent requests, such as when 
a potentially dangerous person is about to board a plane. In those 
circumstances, the State Department can and does use its authority to 
revoke the visa prudentially, and thus prevent the individual from 
boarding.
    The Department has broad and flexible authority to revoke visas and 
we use that authority widely to protect our borders. Since 2001, the 
Department has revoked approximately 62,000 visas for a variety of 
reasons, including nearly 6,000 for suspected links to terrorism. Most 
revocations are based on new information that has come to light after 
visa issuance. Because individuals' circumstances change over time, and 
people who once posed no threat to the United States can become 
threats, revocation is an important tool. We use our authority to 
revoke a visa immediately in circumstances where we believe there is an 
immediate threat. At the same time, we believe it is important not to 
act unilaterally, but to coordinate expeditiously with our National 
security partners in order to avoid possibly disrupting important 
investigations. Individuals whose visas are revoked may reapply at a 
U.S. embassy or consulate abroad; their reapplication would be subject 
to complete interagency security vetting to determine their eligibility 
for a visa.
     the assistant regional security officer, investigator program
    The Bureau of Diplomatic Security (DS) Assistant Regional Security 
Officer, Investigator (ARSO-I) Program adds an important law 
enforcement element to the Department's visa security capabilities. 
There are currently 105 ARSO-I positions approved for 93 consular 
sections overseas, specifically devoted to working with our foreign law 
enforcement partners to combat travel document fraud and other law 
enforcement issues. These highly trained law enforcement professionals 
add another important dimension to our border security efforts, and we 
are working with DS to identify additional locations for ARSO-I 
placement.
    ARSO-Is train our foreign partners in the recognition of fraudulent 
travel documents and work closely with immigration and airline security 
officials assigned at foreign airports. They teach courses at our 
International Law Enforcement Academies, networking with foreign law 
enforcement partners and learning about vulnerabilities in foreign visa 
and passport systems. DS agents share this information with each other, 
resulting in additional investigations and opportunities to shut down 
human smuggling and trafficking networks that could potentially be 
exploited by terrorists. ARSO-Is have trained over 50,000 foreign law 
enforcement personnel, resulting in stronger global enforcement efforts 
targeting illicit methods of travel.
    ARSO-Is work very closely with consular fraud prevention managers, 
sharing information and participating in joint training sessions to 
ensure that adjudicating consular officers possess up-to-date 
information on fraud trends in their country. They are complemented by 
DS agents working domestically on visa and passport fraud criminal 
investigations and analysis. Investigations that originate overseas 
often have a U.S. nexus, and close collaboration between overseas and 
domestic DS agents has resulted in many U.S.-based prosecutions.
               cooperation with the visa security program
    The Department of State believes that the Visa Security Program 
(VSP), under which DHS establishes Visa Security Units (VSU) staffed 
with U.S. Immigration and Customs Enforcement (ICE) special agents at 
certain overseas consular posts, is another valuable component of the 
U.S. Government's overall border security program. We have a close and 
productive partnership with DHS, which has authority for visa policy 
under section 428 of the Homeland Security Act, and are fully 
supportive of the mission and future of the VSP.
    The VSP increases the utility of the visa application and interview 
processes to detect and combat terrorism, criminality, and other 
threats to the United States and the traveling public. ICE special 
agents assigned to VSUs provide on-site vetting of visa applications 
and other law enforcement support to our consular officers. When 
warranted, DHS officers assigned to VSUs will conduct targeted, in-
depth reviews of individual visa applications and applicants prior to 
issuance, and recommend refusal or revocation of applications to 
consular officers. We work very closely with DHS to ensure to the 
maximum possible extent that no terrorist receives a visa or is 
admitted into our country.
    As the VSP has matured over the past few years, VSU personnel have 
moved beyond a singular focus on visa application review. Working with 
their law enforcement colleagues assigned to our various missions, they 
have contributed their expertise and resources to enhance our response 
to all kinds of threats to the visa and immigration processes including 
human smuggling and trafficking.
    In Washington, we work very closely with our VSP colleagues on day-
to-day issues affecting the operations of the program, as well as 
longer-term issues related to the expansion of the program to select 
overseas posts. VSP officers in Washington review our visa databases 
and advise posts of emerging information about visa holders. Another 
important aspect of our Washington partnership is coordinating VSP 
expansion to more posts. The Department's Bureaus of Consular Affairs 
(CA) and Diplomatic Security (DS) have a Memorandum of Understanding 
(MOU) with ICE governing VSU-Department of State interactions with visa 
sections. This MOU outlines procedures for resolving the very few 
disputed visa cases that emerge from the VSU review process, and 
collaboration between ICE/VSU agents and their DS law enforcement 
colleagues assigned as Regional Security Officers (RSOs) or ARSO-Is.
    Currently, 19 VSUs are active at posts in 15 countries. In 
administering and expanding the VSP, the Department works 
collaboratively with DHS, pursuant to an October 2004 MOU between the 
Department and the VSP on the ``Administrative Aspects of Assigning 
Personnel Overseas,'' and National Security Decision Directive 38 
(NSDD-38). This directive outlines factors to be considered by Chiefs 
of Mission when considering requests by a U.S. Government agency to 
create a new position at a post abroad. NSDD-38 gives Chiefs of Mission 
responsibility for the size, composition, and mandate of U.S. 
Government agency staff under his or her authority.
    Before submitting an NSDD-38 request, ICE officials, with the 
support of senior Department officers from CA and DS, conduct a post-
specific, on-site assessment. The visit provides an opportunity for the 
team to consult with officials at post to validate the interagency 
assessment of the risk environment, determine the feasibility and 
timing of establishing an office, and brief the Chief of Mission on the 
role of the VSU. In 2012, joint Department/DHS teams conducted 
assessment visits to two potential VSU sites, and follow-on NSDD-38 
requests currently are under consideration by the Department of State.
                   layered security and data sharing
    As I have previously stated in my testimony, the Department 
embraces a layered approach to security screening. In addition to our 
support of the VSP, the Department and DHS have increased resources 
significantly, improved procedures, and upgraded systems devoted to 
supporting the visa function over the past 7 years. DHS receives all of 
the information collected by the Department during the visa process. 
DHS's US-VISIT is often cited as a model in data sharing because the 
applicant information we provide, including fingerprint data, is 
checked at ports of entry to confirm the identity of travelers. DHS has 
access to our entire CCD. A menu of reports tailored to the specific 
needs of each particular unit is supplied to elements within DHS, such 
as ICE's agents assigned to VSUs.
    All of our visa information is available to other U.S. Government 
agencies for law enforcement and counterterrorism purposes, and our 
systems are specifically designed to facilitate tailored and 
comprehensive data sharing with our partners. We give other agencies 
immediate access to more than 14 years of visa data for these purposes, 
and they use this access extensively in the course of conducting law 
enforcement and/or counterterrorism investigations.
    Working in concert with DHS, we proactively expanded biometric 
screening programs and integrated this expansion into existing overseas 
facilities. In partnership with DHS and the FBI, we established the 
largest fingerprint screening program on the globe. These efforts 
require intense on-going cooperation from other agencies. We 
successfully forged and continue to foster partnerships that recognize 
the need to supply accurate and speedy screening in a 24/7 global 
environment. As we implement process and policy changes, we are always 
striving to add value in both border security and in operational 
results. Both dimensions are important in supporting the visa process.
    In addition, every post that issues visas has at least one fraud 
prevention officer and locally-employed staff devoted specifically to 
fraud prevention and document security. We have a large Fraud 
Prevention Programs office in Washington, which works closely with DS. 
We have fraud screening operations which use sophisticated database 
checks at the Kentucky Consular Center in Williamsburg, Kentucky, and 
the National Visa Center in Portsmouth, New Hampshire. Their role in 
flagging questionable applications and applicants who lack credibility, 
present fraudulent documents, or give us false information adds a 
valuable dimension to our visa process.
                      facing the terrorist threat
    We face an evolving threat of terrorism against the United States, 
but the multi-agency team effort, based upon broadly-shared 
information, provides a solid foundation for securing U.S. borders. The 
people and tools we use to address this threat are sophisticated and 
flexible. The interagency community continues to automate processes to 
reduce the possibility of human error, and enhance our border security 
screening capabilities.
    Our response to these threats accounts for the cultural and 
political environment in which they arise. Our officers are well-
trained, motivated, and knowledgeable. Our information is comprehensive 
and accurate. Our criteria for taking action are clear and coordinated. 
The Department remains fully committed to fulfill our essential role on 
the border security team.
               enhanced cooperation with foreign partners
    The U.S. Government's information-sharing initiatives ensure that 
we and our international partners are in constant contact regarding the 
threat of terrorist travel. The Department plays a key role in all of 
these international initiatives.
    Homeland Security Presidential Directive 6 (HSPD-6), among other 
things, called for enhancing information sharing with our foreign 
partners, starting with those countries participating in the Visa 
Waiver Program. Through July of this year, the Department, in 
collaboration with the TSC, has negotiated more than 40 agreements or 
arrangements facilitating the bilateral exchange of terrorism screening 
information. These agreements enhance the data in our U.S. Government's 
known or suspected terrorist watch list and strengthen our 
counterterrorism cooperation.
    We also have entered into arrangements for the sharing of visa 
information with foreign governments, consistent with the requirements 
of section 222(f) of the INA. Since 2003, there have been arrangements 
in place with Canada for such sharing under certain circumstances. With 
DHS, the Department is participating in a pilot program, through the 
Five Country Conference (United States, Australia, Canada, New Zealand, 
and the United Kingdom) for identification of some travelers based on 
biometric matching. We are in negotiation with the governments of 
Canada and the United Kingdom for agreements that would provide a legal 
basis for us to implement arrangements for the automated sharing of 
visa refusal data and for systematic confirmation of an applicant's 
identity through biometric matching. We expect both agreements to be 
completed this year, and similar agreements with Australia and New 
Zealand in 2013.
    We have been and remain a close partner of DHS in API and PNR 
discussions overseas, in particular with respect to the talks with the 
European Union leading to the PNR Agreement that entered into force on 
July 1, 2012. Together, all of these programs are helping achieve the 
goal of constraining terrorist mobility and ensuring the security of 
travelers. This is our obligation to the American people.
                               conclusion
    The Department's border security agenda does not conflict with our 
support for legitimate trade and travel. In my testimony for your 
subcommittee and for the subcommittee on Travel and Tourism of the 
Senate Committee on Commerce, our message is the same: The United 
States' long-term interests and security are served by continuing the 
flow of commerce and ideas that are the foundations of prosperity and 
security. Exposing international visitors to American culture and 
ideals is the best way to decrease misperceptions about the United 
States. Fostering academic and professional exchanges keeps our 
universities and research institutions at the forefront of science and 
technology.
    The Department continues to refine its intensive visa application 
and screening process requiring personal interviews, employing analytic 
interview techniques, incorporating multiple biographic and biometric 
checks, all supported by a sophisticated global information technology 
network. We have visa offices in virtually every country of the world, 
staffed by consular officers drawn from the Department's professional, 
mobile, and multilingual cadre of Foreign Service Officers. These 
officials are dedicated to a career of worldwide service, and provide 
the cultural awareness, knowledge, and objectivity to ensure that the 
visa function remains the front line of border security. Each officer's 
experiences and individual skill set are enhanced by an overall 
understanding of the political, legal, economic, and cultural 
development of foreign countries in a way that gives the Department of 
State a special expertise over matters directly relevant to the full 
range of visa ineligibilities.
    The Department's global presence, foreign policy mission, and 
personnel structure give us singular advantages in executing the visa 
function throughout the world. Our authorities and responsibilities 
enable us to provide a global perspective to the visa process and its 
impact on U.S. National interests. The issuance and refusal of visas 
has a direct impact on our foreign relations. Visa policy quickly can 
become a significant bilateral problem that harms broader U.S. 
interests if handled without consideration for foreign policy equities. 
The conduct of U.S. visa policy has a direct and significant impact on 
the treatment of U.S. citizens abroad. We are in a position to 
anticipate and weigh all those factors, while always keeping border 
security as our first priority.
    This concludes my testimony today. I will be pleased to take your 
questions.

    Mrs. Miller. Thank the gentlemen.
    The Chairwoman now recognizes Mr. Edwards for his 
testimony.

  STATEMENT OF CHARLES K. EDWARDS, ACTING INSPECTOR GENERAL, 
    OFFICE OF THE INSPECTOR GENERAL, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Edwards. Good morning, Chairwoman Miller, Ranking 
Member Cuellar, and distinguished Members of the subcommittee. 
Thank you for inviting me to testify today regarding border 
security to detect and deter terrorist travel.
    I will present the results of three reports that we issued 
in the past year on this topic. Specifically, we looked at 
resources and coordination among DHS agencies to screen foreign 
nationals and protect the border, controls that US-VISIT to 
identify potentially fraudulent attempt to enter the United 
States and TSA's implementation of the Secure Flight Program.
    The infrastructure for securing our borders is layered. 
Federal entities such as the Department of State and DHS 
components like CBP, TSA, US-VISIT and ICE make vital 
contributions to border security. In addition, other Federal, 
State, and local entities play critical roles in this layered 
strategy.
    However, technological issues, resource deficiencies and 
interagency coordination present significant challenges. For 
example, DHS officers at any of the 327 air, sea, and land 
border ports of entry have to access as many as 17 different 
DHS systems to verify the identity of foreign nationals and 
make admission decisions.
    Some components have made progress in streamlining their 
systems. However, mobile devices used by some SBP officers and 
border patrol agents continue to lack adequate bandwidth and 
technology. This can hinder officers in the field attempting to 
fingerprint aliens or accessing law enforcement and immigrant 
databases.
    In addition, long-standing mission overlap and inadequate 
information sharing between CBP and ICE agents at the Northern 
Border have sometimes led to duplication of efforts and 
concerns over officer safety. The Department concurred with 
five of the eight recommendations, and has implemented actions 
to address our findings.
    DHS has even taken actions to close two of the three 
recommendations with which it did not concur. We expect the 
final recommendation to be closed next month. US-VISIT is 
designed to collect and analyze foreign nationals' biographic 
and biometric data and provide timely, accurate information to 
border enforcement officials to prevent entries of potentially 
fraudulent and dangerous individuals.
    However, we found hundreds of thousands of instances where 
the same fingerprint was recorded in US-VISIT's database with 
sometimes as many as 14 different names and dates of birth. The 
vast majority of this faulty data is attributable to data entry 
errors in the name and date fields.
    However, US-VISIT officials were unable to quantify how 
many of those inconsistencies came from individuals 
purposefully presenting fraudulent information at the border. 
Our report identified a number of instances where individuals 
with derogatory information, such as criminal aliens, supplied 
different biographic information to CBP officers in an attempt 
to enter the United States.
    These individuals were not flagged in the IDENT Database. 
US-VISIT concurred with our recommendations to improve 
procedures to target, identify fraud.
    Another pillar in the fight against terrorism is TSA's 
Secure Flight Program. Through this program, TSA assumed from 
commercial operators the matching of passenger names against 
the terrorist watch list. If passenger information matches 
closely enough against the watch list record, a TSA analyst 
must complete a manual review of that passenger's record.
    Unless the match is resolved, the boarding pass cannot be 
printed until the passenger provides identification to the 
aircraft operator and TSA. TSA may also may require a passenger 
to undergo additional screening at a secure checkpoint or deny 
that person access beyond the security area altogether.
    The standardization affected by Secure Flight has resulted 
in more consistent watch list matching process. However, Secure 
Flight's watch list matching results are sometimes disrupted by 
DHS and aircraft operator system outages. In some instances, 
aircraft operators have overridden TSA controls and allowed 
inhibited individuals to board the aircraft.
    In response to our recommendations, TSA has taken steps to 
address these issues.
    Madam Chairwoman, this concludes my prepared remarks. I 
thank you again for the opportunity to testify before this 
committee. I would be happy to answer any questions you or 
other Members might have. Thank you.
    [The prepared statement of Mr. Edwards follows:]
                Prepared Statement of Charles K. Edwards
                           September 11, 2012
    Good morning Chairwoman Miller, Vice Chairman Quayle, Ranking 
Member Cuellar, and distinguished Members of the subcommittee. I am 
Charles K. Edwards, acting inspector general of the Department of 
Homeland Security (DHS). Thank you for inviting me to testify about the 
results of our work on border security. I will present the results of 
three recent reports on DHS' implementation--along with other 
departments and agencies--of various programs aimed at securing our 
border and preventing terrorist travel.\1\ Specifically, I will 
address: (1) DHS screening of foreign nationals, as well as the 
cooperation, resources, and technology necessary to share information 
and safeguard our borders; (2) the United States Visitor and Immigrant 
Status Indicator Technology Office's (US-VISIT's) oversight of 
biographic and biometric data for foreign nationals entering the United 
States; and (3) the Transportation Security Administration's (TSA's) 
implementation of the Secure Flight program.
---------------------------------------------------------------------------
    \1\ The information provided in this testimony is contained in the 
following reports: Information Sharing on Foreign Nationals: Border 
Security (OIG-12-39); US-VISIT Faces Challenges in Identifying and 
Reporting Multiple Biographic Identities (OIG-12-111); and 
Implementation and Coordination of TSA's Secure Flight Program (OIG-12-
94).
---------------------------------------------------------------------------
multiple departments and agencies play crucial roles in border security
    The security infrastructure at U.S. borders is layered and the 
Department of State (State), DHS components, and other Federal, State, 
local, Tribal, and private entities play critical roles in securing our 
border. For example, State Department consular personnel review the 
visa applications of all individuals traveling to the United States 
from countries where visas are required. State approves visas only 
after checking the individual's fingerprints against previous 
biographic records associated with those fingerprints to ensure that 
the individual has not previously used different biographic information 
to enter the United States. TSA performs passenger watch list matching 
for all covered flights into, out of, within, and over the United 
States. U.S. Customs and Border Protection (CBP) analyzes cargo and 
passenger manifests to identify higher risk matters for subsequent 
examination, and CBP immigration Advisors provide real-time assistance 
to foreign authorities at some foreign airports.
    In addition to control procedures that occur prior to foreign 
nationals entering the United States, other Federal entities have 
control procedures designed to identify potential criminal behavior at 
entry to the United States or subsequently, in order to flag 
individuals for future apprehension. CBP officers at ports of entry 
check travel documents to identify potential fraudulent or stolen 
passports, visas, or other travel documents before admitting an 
individual to enter the United States. Even after entry, US-VISIT and 
other DHS data systems play a crucial role in processing data captured 
by numerous agencies to identify and flag potential identity fraud or 
individuals who have overstayed their visas. Multiple layers of 
effective security programs and coordination among agencies are crucial 
to protecting our Nation.
       screening of foreign nationals and information sharing \2\
---------------------------------------------------------------------------
    \2\ Information Sharing on Foreign Nationals: Border Security (OIG-
12-39).
---------------------------------------------------------------------------
    We identified resource and technological difficulties facing DHS' 
border security programs in screening foreign nationals, as well as 
challenges in coordinating among DHS components.
    Resource and technological difficulties.--DHS officers at any of 
the 327 air, sea, or land border ports of entry have to access as many 
as 17 different DHS systems to verify the identity and evaluate the 
admissibility of foreign nationals seeking to enter the United States. 
This process is labor-intensive, and the inefficiency of using multiple 
data systems hinders border security officers in their efforts to 
verify or eliminate links to possible terrorism or other derogatory 
information. While CBP and U.S. Immigration and Customs Enforcement 
(ICE) have developed more streamlined software to conduct immigration 
inspections, apprehension, and enforcement, DHS officers with more 
complex border security caseloads still face challenges in data 
systems. In addition, some ports of entry, land, and maritime border 
operations had unmet infrastructure needs. For example, at some land 
border ports of entry, limited direct access to law enforcement, 
intelligence, and immigration databases and high-speed internet 
connections had a negative effect on the operations of these locations. 
Some CBP Officers who conduct outbound screening--and most Border 
Patrol Agents in the field--use only mobile devices that lack the 
bandwidth and access to multiple databases that desktop terminals 
provide.
    Information Sharing and Coordination.--Our Inspection Report 12-39 
describes challenges presented by the long-standing mission overlap 
between CBP and ICE agents at the Northern Border. The intersection of 
their responsibilities, along with inadequate information sharing, has 
sometimes led to duplication of missions and concerns over officer 
safety. These problems also hindered the effectiveness and efficiency 
of operations to screen and process foreign nationals. We determined 
that CBP and ICE do not always share all information and intelligence 
related to open investigations, even when the origin of the 
investigation comes from both agencies. Further, the data systems used 
by CBP and ICE are not designed for information sharing on 
investigations, or to identify operations that may overlap between the 
two agencies. DHS-level guidance is necessary to provide clarity on 
missions and priorities for law enforcement agencies that share 
overlapping mandates, such as ICE and CBP.
               us-visit's oversight of traveler data \3\
---------------------------------------------------------------------------
    \3\ US-VISIT Faces Challenges in Identifying and Reporting Multiple 
Biographic Identities (OIG-12-111).
---------------------------------------------------------------------------
    The Automated Biometrics Identification System (IDENT) maintained 
by US-VISIT contains hundreds of thousands of discrepant records. We 
also determined that the identity resolution processes at US-VISIT are 
manual and not specifically targeted to identifying individuals who may 
have presented fraudulent identities to attempt to enter the United 
States.
    IDENT contains biographic and biometrics information collected by 
various agencies including State, ICE, CBP, U.S. Customs and 
Immigration Services (USCIS), and the Federal Bureau of Investigations 
(FBI). Each time an international traveler passes through a United 
States port of entry, US-VISIT checks the person's biometrics, i.e., 
fingerprint and/or picture, against a biometric watch list of more than 
6.4 million known or suspected terrorists, criminals, and immigration 
violators. In addition, US-VISIT checks the foreign visitor's 
fingerprint along with their permit and/or other documents against a 
number of systems to verify an individual's identity and authenticate 
travel document. These efforts at US-VISIT assist CBP officers make a 
final determination as to whether the individual should be admitted.
    Oversight of Overstays and Identity Resolution.--According to US-
VISIT officials, they have identified individuals who have overstayed 
visas by comparing visa information against entry and departure data, 
and established overstay lookouts so CBP officers and Department of 
State personnel can be warned of potential overstays seeking reentry to 
the United States. In fiscal year 2011, US-VISIT referred more than 900 
visa overstay leads per week to ICE. US-VISIT also provides other 
Federal law enforcement and intelligence community with historical 
biographic and biometric information in the course of their 
investigations.
    With respect to identity resolution, US-VISIT reviews records of 
foreign nationals entering and exiting the United States where 
different biographic data were associated with the same biometrics. 
This process involves US-VISIT analysts manually reviewing entry 
records to determine whether biographic information was input 
incorrectly at the point of collection, or whether fraud may have 
occurred. For example, analysis of discrepant data may reveal that a 
husband and wife had their passports switched during entry, a 
traveler's first and last name was switched at entry, or a traveler's 
birth date was recorded using different day and month format.
    Procedures Targeting Potential Identity Fraud Needs Improvements.--
The manual review process presents challenges considering the large 
volume of data that exist on travelers who sought entries into the 
United States. Specifically, our analysis of data from IDENT identified 
more than 800,000 instances affecting 375,000 individuals where the 
name and/or date of birth did not match other records with the same 
fingerprint identification number. These hundreds of thousands of 
records with inconsistent biographic data limit the effectiveness and 
efficiency of using biometrics to identify and prevent the use of 
fraudulent identities at U.S. ports of entry. According to US-VISIT 
officials, US-VISIT manually reviews IDENT encounters with multiple 
biographic records to identify potential identity fraud. However, US-
VISIT's current identity resolution effort is not designed to 
specifically target individuals who are using multiple identities to 
enter the United States. Since 2005, US-VISIT analysts have referred 
only two instances of biographic fraud to ICE.
    Data Inconsistencies Hinder Oversight Effectiveness.--Most of the 
multiple identities appear to be data integrity errors. For example:
  <bullet> Test data existed in the alien encounter information that 
        US-VISIT provided to us. In a number of instances, we reviewed 
        records with the same fingerprint number but with fictitious 
        names such as ``Mickey Mouse'' and ``Jarvis Sample.''
  <bullet> In a number of instances, the same set of fingerprints was 
        used to record the names of as many as seven different 
        individuals.
  <bullet> Nearly 400,000 records for women have different last names 
        for the same first name, date of birth, and fingerprint. 
        According to US-VISIT officials, these instances are likely 
        women who changed their names after a marriage.
    However, US-VISIT was unable to quantify how much of the biometric/
biographic inconsistencies can be attributed to data entry and other 
identifiable errors, and how much occurred because of intentional fraud 
by individuals who used different biographical data to attempt illegal 
entry.
    Examples of potential fraud.--Our analysis of IDENT identified that 
individuals used different biographic information at ports of entry 
after they had applied for a visa under a different name or been 
identified as a recidivist alien. These multiple biographic identities 
were not flagged in IDENT. For example:
  <bullet> A male who used two different names and dates of birth to 
        attempt to enter the United States in 2008 and 2011 was 
        identified as a repeated criminal (recidivist) alien.
  <bullet> A female who was identified as a recidivist alien in 2008 
        used different biographic data to attempt to enter the United 
        States, once in 2009 and twice in 2011.
  <bullet> A female who was identified as a recidivist alien in 2006 
        attempted to enter the country on three visits in 2009, 2010, 
        and 2011 under variations of the same name.
    Although the more than 800,000 instances represented less than 1 
percent of overall IDENT encounter data we received from US-VISIT, the 
potential risk can be significant. Critical work performed by CBP and 
State mitigates some of the security risks. However, without a process 
to distinguish between errors and potential fraud quickly, US-VISIT is 
limited in its ability to flag identity fraud, and therefore help 
border enforcement agencies prevent improper entries into the United 
States.
         tsa's implementation of the secure flight program \4\
---------------------------------------------------------------------------
    \4\ Implementation and Coordination of TSA's Secure Flight Program 
(OIG-12-94).
---------------------------------------------------------------------------
    Through the Secure Flight program, TSA assumed from commercial 
operators the performance of passenger watch list matching for all 
covered flights into, out of, within, and over the United States. 
Aircraft operators are required to submit passenger data to Secure 
Flight prior to flight departure for advanced passenger prescreening. 
Secure Flight implementation has resulted in a more consistent watch 
list matching process. However, DHS and aircraft operator system 
outages sometimes disrupt the process.
    More Consistent Watch List Matching.--TSA requires aircraft 
operators to transmit airline passenger information including name, 
gender, passport number (if applicable) and date of birth to Secure 
Flight. Passenger information is submitted 72 hours prior to flight 
departure, and a high-priority queue has been established for 
reservations created subsequently. TSA matches the passengers' 
biographic information against the Terrorist Screening Database and the 
No-Fly and Selectee subsets. If the information matches closely enough 
against a watch list record, the Secure Flight system flags the record 
for manual review by a TSA analyst. If the analyst needs more 
information, the boarding pass is ``inhibited''--it cannot be printed 
until the passenger provides identification to the aircraft operator 
and TSA. Based on the review, TSA may clear the individual. 
Alternatively, TSA may provide for additional screening at a security 
checkpoint, or deny boarding or authorization to enter a U.S. airport's 
sterile area.
    Because all airlines are required to use the same process, Secure 
Flight has provided a more consistent watch list matching process for 
both TSA and passengers. However, aircraft operators have the ability 
to override inhibited boarding passes. When this occurs, inhibited 
individuals who have not yet been cleared by Secure Flight may not be 
handled appropriately before entering an airport's sterile area or 
boarding an aircraft. In its response to our report, TSA said that they 
have taken steps to identify how and when aircraft operators 
inappropriately engaged in overrides, ensure screening is performed 
when overrides are identified, and launch compliance investigations.
    Secure Flight Sometimes Disrupted by System Failures.--Secure 
Flight's watch list matching results are sometimes disrupted by DHS and 
aircraft operator system outages. Outages may require aircraft 
operators to revert to alternative procedures that may include pre-
Secure Flight watch list matching procedures and protocols. TSA has 
established procedures to identify and resolve outages. Secure Flight 
has also taken steps to address these disruptions through operation 
center and system redundancy.
    Our reports have described the work and coordination of agencies 
within and outside the Department of Homeland Security that play an 
important role in deterring terrorist travel. Because of the hard work 
of these entities, we have identified and stopped terrorist acts before 
they have occurred. However, our reports have also identified a number 
of areas, including identification of fraudulent identities, system 
interfaces, and increased coordination, where agencies can make further 
improvements to help ensure the efficiency, accuracy, and effectiveness 
of our complex border security system.
    Mr. Chairman, this concludes my prepared remarks. I welcome any 
questions that you or the Members of the subcommittee may have.

    Mrs. Miller. Thank you all very much. I certainly 
appreciate your service to the country, first of all. One of 
the things that I think we all learned from the 9/11 Commission 
recommendation--well, there were a number of excellent 
recommendations in this document. I tell you, in our office, we 
don't regard this as shelfware. We use it all the time. We are 
constantly referencing it on various points.
    But certainly one of the things that has always stuck in my 
mind is that we need to move from the need-to-know to the need-
to-share information. When we talk about visa overstays or 
problems with the visa application process that we have had in 
our Nation, first of all, let us all recognize that we have 
made unbelievable positive strides forward since 9/11 in our 
processes.
    But the largest room is always a room for improvement, I 
suppose. I think it is particularly so when--I mentioned about 
the Christmas day bomber in my opening remarks. But, you know, 
with the kind of threat that we face, these enemies of freedom 
are looking at a battlefield in different optics, I suppose you 
could say, than we ever have before. They see the battlefield 
in a very asymmetrical way.
    Certainly on that particular day, the Christmas day bomber 
saw the battlefield as seat 19A on that Northwest flight. That 
was the battlefield for him.
    I know that we had a problem in the visa application 
process with that particular individual because of a spelling 
error. That was brought to everybody's attention, et cetera. 
Subsequently, since that time, we have had, again, tremendous 
strides forward, I think, in our visa processes.
    We are doing the vetting against the watch listing. You are 
doing your initial application checks, et cetera. So I guess my 
question is--and I know the revocation process has 
significantly increased since that time as well, all to the 
good.
    I guess my question would be, if you could flesh out a bit 
how something like that had happened, how it hopefully would 
not happen in the future, as you think about, again, the need-
to-know to the need-to-share information on how cooperation is 
happening in a better way with the various agencies, the 
Department of State, CBP, your overseas consular applications, 
et cetera.
    I am not sure who I am addressing this to.
    Ms. Walther. I am happy to kick it off.
    Mrs. Miller. Okay.
    Ms. Walther. The interagency conducted a complete review 
following the events 12/25 in 2009, and took several 
significant steps following that event. One of our largest was 
the robust interagency process to revise the criteria for 
nominations to the watch list to close gaps.
    We also have 100 percent vetting of all commercial airline 
passengers today through Secure Flight. CBP also vets on a 
recurrent basis all visa holders. CBP's pre-departure program 
pushed back the vetting of passengers before they board a 
plane.
    As an international effort, working with our international 
partners, DHS worked with the International Civil Aviation 
Organization, looking at a global framework for how we look at 
aviation security. That framework was supported by nearly 190 
countries.
    So you can see that in the interagency, as well as with our 
international partners, we continue to be aggressive. We will 
not stop until we prevent terrorist attacks to the United 
States.
    Mrs. Miller. Very good.
    Does anyone else have any follow-on to that?
    Mr. Ramotowski. Yes, I would just like to add that from the 
perspective of the State Department, we have significantly 
strengthened our Visas Viper procedures, which is the State 
Department's method of reporting individuals for watch listing. 
At the time of the 12/25/09 incident, as my colleague has 
stated, the interagency watch-listing guidance did not permit 
for Mr. Abdulmutallab to be watch listed. We have changed that.
    The Department also acts immediately whenever a Visas Viper 
message arrives with an individual who currently possess a 
valid visa. That visa will be revoked unless a law enforcement 
or intelligence agency asks us not to.
    Mrs. Miller. I appreciate that.
    The Chairwoman now recognizes our Ranking Member.
    Mr. Cueller. Thank you, Madam Chairwoman. Just a quick 
statement, because as you know, we will be cutting the 
committee down because we have the 9/11 remembrance there at 
the Capitol steps. We certainly don't want to be late for that.
    Let me just say this: I think we are all on the same page. 
So we have got to do everything possible to make sure we don't 
let another group or individual attack the United States as we 
saw back in 9/11/2001. But at the same time as we do that, we 
have to make sure that we don't let the pendulum swing over so 
much to the other side where we restrict our own freedoms and 
our own economic freedoms also, in the sense that we got to 
find that balance between security and making sure that the 
legitimate trade, tourism, people coming into the United States 
are coming in.
    I would ask you all that as you look at that, you look at a 
couple of things. One is the efficiencies that you all are 
looking at and finding ways to get more efficient. You know, 
still providing security but the efficiencies, so we minimize 
the impacts to the legitimate trade and tourism, people coming 
in.
    The other thing is, keep in mind that a couple of years 
ago, just 2 years ago, we passed the modernization of the 
performance based act that we have here in the Congress. I 
would ask you--if you are not familiar with that, I would ask 
you to look at that, because as time goes on, we are going to 
be looking at more the performance, not measuring activity, but 
performance, measuring the results.
    We give you $1; what do we get for $1? What does the 
taxpayer get back? So I would ask you, as you are looking at 
your great job that you are doing, and we appreciate what you 
all are doing, is to look at the efficiencies, trying to find 
the balance in the work that you are doing.
    I know some of you all are law enforcement. I have three 
brothers that are law enforcement. I got a brother who is a 
border sheriff down there on the border. I understand law 
enforcement is so important to us. But at the same time, just 
keeping in mind that you still have an impact on business, on 
tourism and on the people that are trying to do the legitimate 
trade and tourism over here.
    So I would ask you--and again, I guess I would turn from a 
question a statement. I would only ask you to please keep that 
in mind as you do your job. You do it in a good way. I salute 
all the men and women that are doing your job for the State 
Department, CBP, and the inspector general, and the other folks 
working together.
    But just don't lose sight of the efficiencies, maximizing 
the taxpayers' dollars, finding the balance in security and 
trade and tourism. If we do that, I think our country will 
remain secure, but still remain prosperous and free.
    Thank you so much. Again, to all of you, I thank you for 
what you and your men and women do. Thank you so much.
    Mrs. Miller. I thank the Ranking Member. I thank all the 
committee individuals for being here today, my colleagues. As 
was said, we have a remembrance ceremony on the steps of the 
Capitol in a very few short minutes. I think that will serve to 
focus all of our attention on what happened that terrible day 
11 years ago when the enemies of freedom attacked our Nation, 
and they really tried to get us to retreat from freedom.
    In that, they failed miserably. We have seen in the last 11 
years, the sons and daughters of America rise up and defend our 
freedoms, our liberty, our democracy. What is happening even 
here today with this hearing is a very vivid demonstration I 
think of the unity of purpose of every American to make sure 
that we always advance the cause of freedom, not only here in 
the United States domestically, but certainly we are a society 
that takes that message across the globe. We intend to continue 
to do so.
    As I say, they failed very miserably. Today is a way for us 
certainly to commemorate those innocent Americans that were 
murdered by these cowardly terrorists. We all have a unity of 
purpose to make sure that we do protect our homeland, harden 
our defenses.
    Again, I appreciate all of the witnesses being here today.
    With that, the subcommittee stands adjourned.
    [Whereupon, at 10:43 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

 Questions From Ranking Member Bennie G. Thompson for Kelli Ann Walther
    Question 1a. The DHS Inspector General's August 2012 report 
regarding US-VISIT found instances where intersecting responsibilities 
and inadequate information sharing between CBP and ICE had hindered 
operations to screen and process foreign nationals as well as concerns 
over officer safety. The OIG asserts that these issues cannot be 
corrected without DHS-level guidance in order to provide clarity on 
missions and priorities.
    As a result of the OIG August report, how does DHS plan to 
implement changes in order to alleviate on-going overlapping 
responsibilities between CBP and ICE related to preventing terrorist 
travel?
    Answer. The OIG determined that DHS has invested considerable 
resources to improve staffing and infrastructure to facilitate 
information sharing. DHS continues to take steps to further strengthen 
information sharing, communication, and coordination in this area, and 
address the OIG recommendations.
    A key layer in the DHS multi-layer approach to preventing terrorist 
travel is to identify persons that may pose a risk to U.S. citizens or 
whose entry may violate U.S. law, before they reach the United States. 
U.S. Immigration and Customs Enforcement (ICE) and U.S. Customs and 
Border Protection (CBP) have complementary, coordinated roles in the 
prevention of terrorist travel; both CBP and ICE share information with 
partners regarding foreign nationals who seek to enter the United 
States.
    An example of a joint effort between ICE and CBP is the coordinated 
screening of visa applications. The ICE Visa Security Program (VSP) 
currently screens and vets select non-immigrant visa applications prior 
to visa adjudication and issuance and CBP conducts recurrent vetting of 
all valid visas against newly identified derogatory information. To 
enhance visa security, DHS, ICE, CBP, and the Department of State (DOS) 
are collaboratively developing an automated visa screening process that 
will enable DHS entities to identify derogatory information relating to 
all visa applicants prior to their application being adjudicated by a 
consular officer. This process will inform and be used in conjunction 
with the current DOS Security Advisory Opinion (SAO) and Advisory 
Opinion (AO). DHS internal cooperation and efficiency with respect to 
issued visas and revocation recommendations is also expected to 
continue to improve and be expanded in conjunction with the new 
process. Additionally, DHS, DOS, and the intelligence community are 
working to establish a process to screen all visa applications against 
intelligence information provided by the interagency prior to visa 
issuance. This proposed coordinated review process includes the 
capability to utilize rule-based vetting methodologies, to provide 
detailed case notes and justification for any recommendations related 
to visa issuance, and to recommend applicants for targeted interviews.
    Employing ICE VSP authorities, leveraging CBP expertise and 
authorities, and utilizing current information technology platforms to 
screen pre-adjudicated visa applications and expand the scope of 
recurrent visa vetting significantly enhances the U.S. Government's 
anti-terrorism efforts by adding another layer of security to the 
process while further extending our borders outward.
    Question 1b. Has DHS established a time line to implement these 
changes? Please explain.
    Answer. As explained in the prior response, the multi-layer 
approach utilized by DHS ensures that the missions and operations of 
the Department complement, rather than overlap each other. In an effort 
to enhance visa security measures, representatives from ICE, CBP, and 
DOS are developing PATRIOT (Pre Adjudicated Threat Recognition 
Intelligence Operations Team), a joint project that will revolutionize 
the visa process by both automating the screening of pre-adjudicated 
visa applicants against DHS holdings and collectively leveraging the 
respective ICE and CBP authorities relating to visas.
    When fully operational PATRIOT will have the capability to screen 
and vet all non-immigrant visa's worldwide daily (pre-adjudicative) and 
provide derogatory findings to all 73 HSI attache offices in addition 
to all U.S. Embassies/Consulates without an HSI presence. Complete 
operational capabilities are anticipated to be completed within 2 years 
from version 2.0 release in early January 2013.
    The release of version 2.0 in January 2013 will provide 100 percent 
pre adjudicative screening and vetting capabilities to the 19 existing 
HSI attache offices with visa security operations.
    Question 2a. The DHS Inspector General's August 2012 report 
regarding US-VISIT raises serious questions regarding the integrity of 
the data used by the US-VISIT system. While some of the discrepancies 
may be due to data entry errors, it seems that some travelers may be 
exploiting the overburdened manual entry system.
    What process is in place to target individuals who are using 
multiple identities to enter the United States?
    Answer. The U.S. Visitor and Immigrant Status Indicator Technology 
(US-VISIT) Program received the OIG's full 825,000 instances where the 
OIG determined that the same fingerprints were associated with 
different biographic data and will review the full data set for 
potential fraud. Fraud, in this context, addresses attempts by 
individuals to enter the country rather than successful admissions.
    US-VISIT proactively reviews IDENT records to identify potential 
fraud by individuals attempting to enter the United States or obtain 
immigration benefits. If an individual is suspected of fraud, he or she 
is referred to the appropriate law enforcement agency and placed on the 
watch list for appropriate action. Additionally, a TECS record is 
created so that the agency/stakeholders encountering the subject can 
review the information and make a determination on a course of action. 
Case information may also be forwarded to other agencies for possible 
fraud notification.
    In addition, US-VISIT searches for discrepant biographical 
information corresponding to a single Fingerprint Identification 
Number, or FIN, based on certain other system identifiers. US-VISIT 
reviews encounters with biographical discrepancies to determine if 
there was a typographical error, an error in enrollment where the 
fingerprints were entered under another person's biographical 
information, the date of birth was transposed, or a possible legitimate 
name change on the subject, such as females that have since married.
    The Department is also working to enhance biographic systems, such 
as the Arrival and Departure Information System (ADIS), and related 
interfaces across DHS components to increase interoperability, reduce 
processing errors, and improve data quality. A recent upgrade to the 
ADIS has improved the integration of US-VISIT biometric and biographic 
systems, and US-VISIT will continue to develop plans to improve 
identity resolution as funding permits.
    Question 2b. What happens if an individual is found to have 
committed fraud by changing biographic information in order to enter 
into the United States? Are these individuals ``flagged'' in case of 
future travel?
    Answer. If an individual is suspected of committing identity fraud, 
the subject is promoted to the IDENT watch list and a TECS lookout is 
created. Upon any future biometric and/or biographic screening, 
decision makers such as State Department Consular Officers, U.S. 
Citizenship and Immigration Services (USCIS) for benefits, and CBP 
Officers for admissibility will be notified of this suspected fraud. 
US-VISIT coordinates with the appropriate stakeholder for further 
action. If an individual who committed fraud was able to enter the 
United States, US-VISIT contacts ICE's National Security Investigations 
Division (NSID), Counterterrorism and Criminal Exploitation Unit or 
USCIS directly.
    Question 2c. Does US-VISIT have plans to change its current 
identity resolution procedure in order to target individuals who may be 
attempting to defraud our travel system by entering the United States 
under multiple identities?
    Answer. US-VISIT is reviewing the complete set of 825,000 records 
provided by the Inspector General to identify potential vulnerabilities 
and will coordinate with its partner agencies to improve the quality 
and accuracy of submitted data. A recent upgrade to the Arrival and 
Departure Information System has improved the integration of US-VISIT 
biometric and biographic systems, and US-VISIT will continue to develop 
plans to improve identity resolution in the event funding becomes 
available.

                                 <all>

</pre></body></html>
